<html>
<title> - THE CRISIS IN LIBYA: NEXT STEPS AND U.S. POLICY OPTIONS</title>
<body><pre>[Senate Hearing 115-779]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-779

                   THE CRISIS IN LIBYA: NEXT STEPS 
                        AND U.S. POLICY OPTIONS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED FIFTEENTH CONGRESS



                             FIRST SESSION



                               __________

                              APRIL 25, 2017
                               __________



       Printed for the use of the Committee on Foreign Relations




              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via the World Wide Web:
                         http://www.govinfo.gov 
                         
                         
                         

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
40-164 PDF                 WASHINGTON : 2020 
                         
                         
                         
                         
                         
                         
                         
                         


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  






















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Wehrey, Dr. Frederic, Senior Fellow, Middle East Program, 
  Carnegie Endowment for International Peace, Washington, DC.....     3
    Prepared Statement...........................................     5

Jones, Hon. Deborah K., U.S. Ambassador to Libya, 2013-2015, 
  McLean, Virginia...............................................     7
    Prepared Statement...........................................    10

                                 (iii)

  

 
                    THE CRISIS IN LIBYA: NEXT STEPS 
                        AND U.S. POLICY OPTIONS

                              ----------                              


                        TUESDAY, APRIL 25, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Rubio, Johnson, 
Flake, Gardner, Young, Cardin, Menendez, Udall, Murphy, Markey, 
Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I am going to go ahead and start. I know our 
other witness will be out in just a moment.
    The Foreign Relations Committee will come to order.
    We thank all those for being here.
    In today's hearing, we will examine the crisis in Libya. I 
would like to thank our witnesses for again appearing before 
the committee on this important issue.
    Unfortunately, 6 years ago, after the NATO intervention, 
Libya remains on the brink of civil war. Like many of its 
neighbors, Libya failed to transition into a stable, 
representative democracy hoped for by citizens following the 
Arab Spring. And sadly, it is the Libyan people who have paid 
the price.
    Fighting between militias has undermined internal security, 
weakened government institutions, and damaged the economy. It 
is also posing substantial risk to the U.S. and to our allies. 
Infighting has created a permissive environment for terrorist 
groups like ISIS. The organization's gains in Libya have led to 
U.S.-supported military operations last year in places like 
Sirte. We have had some successes there, but the conditions 
allowing extremists to thrive remain.
    I think many of us agree that the Libyan political 
agreement needs to be altered as the current government lacks 
the power to actually govern the entire country. But that is 
only the beginning. Until the array of militias come under some 
type of central political control, no government will be able 
to provide essential services across the country. And even 
then, Libya will still face enormous challenges to fix weak 
government institutions and turn around the struggling economy.
    I look forward to our discussion today and hearing from our 
two witnesses on the views of the crisis and what needs to be 
done to bring about its peaceful resolution. We would be 
particularly interested to hear your views on what the U.S. can 
do to help achieve these goals and what we should expect if 
ISIS or other radical groups regain ground in Libya.
    Again, we thank you both for being here.
    Ambassador, I did not want you to have to hear all of my 
opening statement. So I went ahead and began.
    And with that, I will turn it over to our distinguished 
ranking member, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. I thought 
your opening statement was very important to be heard by all. 
So I just want you to know that. Thank you very much for 
convening this hearing on Libya.
    Yesterday, I had the opportunity to represent this 
committee, along with Senator Graham who was representing the 
Appropriations Committee, and we met with the ambassadors to 
the United Nations Security Council. We had about a 2-hour 
discussion. I thought it was a very helpful discussion. And we 
talked about a whole range of issues from North Korea to reform 
within the United Nations.
    Ambassador Haley is doing an incredible job of representing 
our interests. I think her leadership as now the President of 
the Security Council for this month will be important. She is 
focusing on the issues of reform. She is focusing on the issues 
of North Korea and other areas that the United States has 
national security interests.
    But one of the issues that came up during that discussion 
by our friends in Europe and our friends in Africa and the 
Middle East is what will be America's engagement. Will America 
be a power for the values that we stand for in dealing with 
global challenges? And that was raised by both friends in 
Europe and the Middle East and Africa.
    And I say that because I start with the fact that the 
United States must be engaged. It is in our national security 
interests to have representative governments in countries like 
Libya that represent all of the population because when we do 
not have representative governments, what happens is it creates 
a void. And that void is filled by ISIS, as we have seen in 
Northern Africa. It is filled by Russia, and we see now 
Russia's engagement in Libya, which has not been helpful. And 
we recognize that it is in America's national security interest 
to get engaged.
    So as you know, we have a private panel of witnesses. The 
Trump administration has yet to be able to fill its critical 
positions, and we are still not exactly clear what his policies 
are in regards to Libya. I was disappointed, Mr. Chairman, in 
the meeting with the Prime Minister of Italy that President 
Trump said--I will paraphrase it--but that we do not really 
have a role in Libya. I think we do have a role in Libya, and I 
think this hearing is an important indication by the Congress 
that we do expect a role to be played.
    I want to just underscore the importance of a 
representative, inclusive government. There is no military 
solution. We have seen this all too frequently in so many 
countries in that region. There is really no military solution 
to Libya. We need an inclusive government, a government that 
represents all of the different factions. We saw, as the 
chairman pointed out, that under the leadership of GNA, we were 
able to make progress in Sirte. That was important. But we also 
see with Moscow's involvement, Mr. Putin's involvement, that 
General Haftar in the eastern part of Libya is causing all 
types of problems for civilian control of the country and is 
also participating in activities that, in my mind, raise 
concern about human rights violations and war crimes.
    So there is a role for us to play. If it is done right, we 
not only can have a representative government. The management 
of their oil resources can inure to the benefit of the people 
of Libya and give them a growing economy and a growing standard 
of living. That is our goal. And I think this hearing can play 
an important part in the Senate's oversight of that 
responsibility. And I look forward to hearing from our two 
witnesses.
    The Chairman. Well, thank you very much for those comments.
    And we will now turn to our witnesses. The first witness is 
Dr. Fred Wehrey, Senior Fellow at the Carnegie Endowment for 
International Peace. Thank you so much for being here, sir. Our 
second witness is the Honorable Deborah Jones, U.S. Ambassador 
to Libya from 2013 to 2015. Thank you for bringing your 
expertise and knowledge.
    If you would just give your opening comments in the order I 
just introduced you. If could summarize in about 5 minutes, we 
would appreciate it. Without objection, your written testimony 
will be entered into the record. You have been here many times. 
So please proceed.

 STATEMENT OF DR. FREDERIC WEHREY, SENIOR FELLOW, MIDDLE EAST 
     PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                         WASHINGTON, DC

    Dr. Wehrey. Thank you. Chairman Corker, Ranking Member 
Cardin, committee members, I am grateful for this opportunity 
to speak with you here today about Libya's political crisis and 
the way forward for U.S. policy.
    I am also honored to be joined by my distinguished co-
panelist.
    For those of us who have followed Libya since the 
revolution, its unraveling has been harrowing to watch. Today 
the U.N.-backed Presidency Council in Tripoli is failing in 
basic governance, unable to establish itself and its feuding 
militias and internal paralysis.
    More importantly, the council confronts an existential 
challenge from an eastern faction led by General Khalifa 
Haftar, backed by Egypt, the United Arab Emirates, and, 
increasingly, Russia. The Haftar-allied parliament in the east 
has refused to endorse the Presidency Council, with its key 
objection being the issue of control over Libya's military.
    Meanwhile, the country slides toward economic ruin. The 
surge of migrants across Libya's deserts and shores remains 
unchecked, and jihadist militancy, whether in the form of the 
Islamic State, Al Qaeda, or some new mutation, could still take 
root.
    These looming dangers, Mr. Chairman, demand immediate 
engagement from the United States. At the most basic level, the 
United States faces two imperatives: first, preventing a 
resurgence of terrorist activity; and second, supporting the 
formation of an inclusive, representative, stable government.
    On the counterterrorism front, the Libyan-led campaign in 
Sirte last summer and fall deprived the Islamic State of any 
real territory. The remaining Islamic State militants, 
estimated in the low hundreds, are currently pooling in the 
center, west, and south, and they may try to mount a high 
visibility attack to show their continued viability.
    What struck me the most during my visits last year to 
Libyan areas afflicted by a jihadist presence, whether Sirte, 
Benghazi, or the west, is that any traction the Islamic State 
got was often highly transactional. It was the result of poor 
governance. And this points to the importance of a broad-based 
approach in denying the jihadists sanctuary. Here, non-military 
strategies are essential. Promoting of economic development, 
municipal governance, education, and civil society form a vital 
adjunct to counterterrorism tools.
    In the effort to identify and assist local Libyan partners 
to defeat terrorism, the United States must proceed carefully. 
Given the absence of a truly national, cohesive military, 
American aid to a particular armed group could upset the 
balance of power and cause greater factional conflict. Moving 
forward, the United States should only back those forces 
controlled by the internationally recognized government, and 
even this support should be limited in scope and geared toward 
specific threats.
    The second area where American diplomatic engagement is 
crucial is the formation of a new government. A starting point 
for doing this is a new, Libyan-led dialogue backed by the 
United States with European partners and regional states. And 
the goal of the talks should be the amendment of the Libyan 
political agreement of 2015, specifically the composition of 
the Presidency Council. The new talks should also focus on two 
tracks absent in the first agreement.
    First, they should include the leaders of Libya's armed 
groups who must agree on a road map for building a national 
level military structure. Here, an American red line must 
continue to be the elected civilian control over the military. 
Proposals for military rule or a military council are hardly a 
recipe for enduring stability. And for most Libyans, they run 
counter to the values for which they fought in the 2011 
revolution.
    Second, the talks must also set up a mechanism for the 
transparent distribution of oil revenues, especially to 
municipal authorities.
    Once such an agreement is in place, the United States and 
its allies must stand ready to assist whatever government 
emerges, and not just on counterterrorism. With its formal 
institutions gutted by years of dictatorial rule, Libya's 
citizens remain its greatest resource. And this is why it is so 
important that the United States preserve its capacity to 
engage directly with the Libyan people.
    Mr. Chairman, committee members, my travels across Libya 
during the past years have underscored the desperation of its 
plight. Yes, the Islamic State was dealt a significant blow, 
thanks in large measure to the sacrifices of brave Libyans. But 
Libya is now more polarized than ever, and the growing vacuum 
could breed future radicalism. Now is the time for American 
leadership to avert an impending collapse, safeguard American 
interests, and to help the country realize the early promise of 
its revolution.
    Thank you for the opportunity to speak with you here today.
    [The prepared statement of Dr. Wehrey follows:]

               Prepared Statement of Dr. Frederic Wehrey

    Chairman Corker, Ranking Member Cardin, Committee members, I am 
grateful for this opportunity to speak with you about Libya's political 
crisis and a way forward for U.S. policy.
    For those of us who've followed and visited the country since 2011, 
its unraveling has been heart wrenching. There is perhaps no more 
painful testament to Libya's dashed hopes than the eastern city of 
Benghazi, the birthplace of the revolution. Swathes of the city are now 
a shambles of spilled concrete and twisted iron, scarred by heavy-
caliber rounds, including the sites of the early anti-Qadhafi protests. 
Many Libyans who gathered here in the heady first days of the uprising 
now find themselves on opposing sides of a civil conflict that has torn 
apart families and killed or wounded thousands. In the past months, 
stability has returned to Benghazi, but the costs have been 
considerable: displacement and destruction, a rupturing of the city's 
social fabric, and worsening divisions across the country.
    Amidst Libya's collapsed authority, it was not surprising that the 
self-proclaimed Islamic State found room to expand, starting in 2014. 
The United States and its allies had hoped that fighting the menace 
posed by the terrorist group could serve as a springboard for unity 
among the country's warring political camps. In fact, the opposite has 
happened; Libya is more divided than ever. Campaigns against the 
Islamic State's strongholds in the west, center, and east proceeded 
pell-mell by local armed groups, without any oversight by a central 
authority. Even those militias that defeated the terrorist group in its 
coastal stronghold in Sirte, aided by American airpower, were only 
loosely tied to the United Nations-backed Presidency Council in 
Tripoli--and many have now turned against that government.
    Today, the Presidency Council is failing in basic functions of 
governance. It is paralyzed by internal feuding and by a dispute with 
the central bank. It is unable to fully establish itself in the capital 
amidst a myriad of militias. More importantly, the Council confronts an 
existential challenge from an eastern faction led by Field Marshal 
Khalifa Hifter, backed by Egypt, the United Arab Emirates and, 
increasingly, Russia. The Hifter-allied parliament in the east has 
refused to lend its endorsement to a new Government of National Accord 
presented by the Presidency Council, with its key objection being the 
issue of control over Libya's military. Leaders in this camp have also 
made alarming statements about moving their forces west to Tripoli and 
settling Libya's political differences through military force. For 
their part, Islamist-leaning figures ejected from Benghazi have vowed 
to continue the fight against Hifter's forces. The two sides have 
clashed over oil facilities in the Sirte Basin and, more recently, 
airfields and supply lines in the southern desert.
    Meanwhile, the country is sliding into economic ruin. Oil 
production has plummeted and the Libyan central bank is quickly burning 
through its reserves. Ordinary citizens are afflicted with untold 
suffering: shortages of medical care, fuel and electricity, and the 
collapse of the Libyan dinar. The surge of African migrants across 
Libya's deserts remains unchecked, abetted by a lucrative and abusive 
trade in smuggling. Jihadist militancy, whether in the form of the 
Islamic State, al-Qaeda, or some new mutation, could still find 
purchase.
    These dangers, Mr. Chairman, demand immediate engagement from the 
United States. Having expended considerable military effort in helping 
Libyan forces wrest territory from the Islamic State last year, the 
United States should now turn its diplomatic attention to ensuring the 
country does not slip into greater chaos. The following observations 
and recommendations for how to do this stem from multiple visits over 
the past few years to Tripoli, Misrata and the west; Benghazi and the 
east; Sirte and the oil crescent, and the oft-neglected southern 
region.
                        navigating the landscape
    Part of what makes Libya so confounding is that multiple crises are 
interlinked. At the most basic level, the United States faces two broad 
imperatives: preventing the resurgence of terrorist activity and 
supporting the formation of an inclusive, stable government. To ensure 
that these two lines of effort are mutually reinforcing the new U.S. 
administration must first understand the complexities of Libya's 
political map.
    First, it should shun the easy and incorrect categorizations of 
Libya's players as ``nationalist,'' ``Islamist,'' and ``secular.'' All 
of Libya's actors believe they are serving the national interest, all 
agree on some role for Islam in political and social life, and many 
would reject the secular label. Even Hifter's side, commonly typecast 
as secular, counts among its allies doctrinaire Salafi Islamists who 
have exerted influence over policing and social affairs in the east.
    The administration should also reject the wrongheaded fantasies of 
fixing Libya through partition, for the simple reason that the vast 
majority of Libyans do not want this, to say nothing of its sheer 
unworkability. Similarly, it should rebuff the beguiling overtures of 
would-be Libyan saviors--whether exiles or ex-regime figures who 
promise to ``deliver'' the country or its tribes and regions from the 
chaos. Libya has few real power brokers, and their influence does not 
extend very far into what has become a fragmented and hyper-localized 
landscape.
    Finally, the United States must avoid subcontracting its Libya 
policy to regional states, especially Egypt and the United Arab 
Emirates, whose exclusionary and securitized approach will only produce 
more division and radicalization. Punting the Libya file to Europe is 
also a non-starter; without U.S. muscle, a European role will lack 
credibility, inviting Russia to be the key power broker.
    With these caveats in mind, the United States and its allies must 
redouble their efforts along several fronts.
                         smart counterterrorism
    The Libyan-led campaign in Sirte last summer and fall deprived the 
Islamic State of any real territorial control. That said, the specter 
of a jihadist resurgence looms. The remaining Islamic State militants--
estimated in the low hundreds--are currently ``pooling'' in the center, 
west, and south. The likely next strategy will be one of dispersal to 
underground cells in and around cities, where militants may try to 
mount a high-visibility attack on an oil facility or government asset 
to demonstrate continued viability. A more worrisome trend is the 
growth of al-Qaeda linked groups in the southwest corner and in the 
northeast--buoyed in part by defections from the Islamic State.
    What struck me during my visits to a number of areas afflicted by a 
jihadist presence, whether Sirte, the southwest desert, Sabratha, or 
Benghazi, is that any traction the Islamic State received often 
resulted from poor or non-existent governance and was highly 
transactional: smugglers welcomed the terrorist group out of a shared 
interest in illicit profits; marginalized tribes saw it as useful 
protection against rivals; some Islamist militias in Benghazi forged an 
alliance with it against the common enemy of Hifter's forces. These 
dynamics highlight the importance of denying jihadists sanctuary 
through a broad-based approach.Here, non-military strategies are 
essential. The promotion of economic development and entrepreneurship, 
municipal-level governance, education, and civil society is a vital 
adjunct to traditional counter-terrorism tools like intelligence, 
surveillance and reconnaissance, border control, train-and-equip, and 
direct action. Prison reform is especially important to prevent 
radicalization and recidivism.
    In the effort to identify and assist Libyan partners to defeat 
terrorism, the United States must proceed carefully. Given the absence 
of a national, cohesive military, Western assistance to a particular 
armed group--whether the provision of intelligence or a train-and-equip 
program--could upset the balance-of-power and cause more factional 
conflict. Moving forward, the United States should only back those 
forces subordinate to the internationally recognized government and 
even this support should be limited in scope and targeted toward 
specific threats. In the past, more ambitious efforts to stand up 
Libyan military forces, whether the conventional ``general purpose 
force'' or specialized counter-terrorism units, failed because Libya 
lacked the institutional structure to absorb new trainees and, more 
importantly, because of political divisions.
    All of this points to the urgency of inclusive reconciliation and 
an enduring political settlement in preventing jihadists from gaining 
further traction.
                    towards a lasting reconciliation
    In recent months, near-universal consensus has emerged that the 
December 2015 Libyan Political Agreement (LPA) that produced the 
Government of National Accord needs to be amended. While some of these 
failures were inherent in the power-sharing formula of the agreement, 
obstruction from the eastern, Hifter-allied bloc also contributed. 
Here, interference by the Emirates and Egypt was pivotal--despite 
endorsing the LPA in principle, they continued to ``hedge'' against it, 
with military and financial assistance to Hifter's faction. Increased 
Russian support to the east, which included, among other things, 
printing much-needed currency, further eroded the prospects for unity.
    Recently, some of Libya's regional patrons have pushed for new 
negotiations. The question now is what kind of government will emerge 
from these maneuverings.
    The American red line must continue to be elected civilian control 
over the military. Proposals for a military council to govern Libya are 
hardly a recipe for enduring stability and, for most Libyans, run 
counter to the values for which they fought in 2011. Already the 
eastern areas under Hifter's control have witnessed a militarization of 
governance, marked by the replacement of elected municipal leaders with 
uniformed military officers. Attempts to apply this rule across the 
country would cause more conflict and would be a boon to the jihadists' 
narrative.
    On the flip side, the bedlam that afflicts Tripoli and parts of 
western Libya is equally deleterious. Here, local militia bosses hold 
sway, skirmish with their rivals, run their own prisons, and are often 
deeply involved in the criminal underworld. Many are aligned with the 
Presidency Council.
    A starting point to resolve the impasse is a new Libyan-led 
negotiation supported by the United States, European partners and 
regional states. The goal of the talks should be the revision of the 
political structures created by the LPA, specifically the composition 
of the Presidency Council. But they should also include two important 
tracks absent in the first agreement.
    First, the new dialogue should include the leaders of major armed 
groups who must formulate a roadmap for building a national-level 
military and police, while at the same time demobilizing and 
reintegrating militia members. Second, the talks must set up a 
mechanism for the transparent distribution of oil revenues, especially 
to municipal-level authorities. On this track, the United States must 
continue to lead the diplomatic effort to safeguard the integrity of 
Libya's financial institutions; namely, the central bank, the oil 
corporation, and the investment authority. Relatedly, the negotiations 
should explore such confidence-building measures as the 
demilitarization of strategic assets like the oil crescent, airports 
and ports that have been the targets of chronic factional wrangling. 
American diplomatic leadership is essential to persuading the foreign 
patrons of Libya's camps to play a constructive role in this process.
    Once such an agreement is in place, the United States and its 
allies must stand ready to assist whatever Libyan government emerges--
and not just on counter-terrorism. With its formal institutions gutted 
by dictatorial rule, Libya's citizens are its greatest resource--and 
that is why it is so important that the United States preserve its 
capacity to engage directly with the Libyan people.
    Mr. Chairman, Committee members, my travels across Libya over the 
past few years have underscored the desperation of its plight. Yes, the 
Islamic State was dealt a significant blow, thanks in large measure to 
the sacrifices of brave Libyans. But Libya is now more polarized than 
ever and the growing vacuum could breed more radicalism. Now is the 
time for American leadership to resolve the crisis, safeguard American 
interests, and help the country realize the early promise of its 
revolution.
    Thank you for the opportunity to speak with you here today.

 STATEMENT OF HON. DEBORAH K. JONES, U.S. AMBASSADOR TO LIBYA, 
                  2013-2015, MCLEAN, VIRGINIA

    Ambassador Jones. Chairman Corker, Ranking Member Senator 
Cardin, distinguished members of the committee, first, my 
apologies. As a retiree, I have never dealt with the parking 
downtown coming in from McLean before on a Tuesday morning.
    But it is my distinct honor to appear before you today on 
this important and vexing matter. And I am pleased to appear 
with a colleague that I consider a real authority and one of 
the most honest authorities, or the most honest voices, on 
Libya today that I hear.
    Libya, obviously, has confounded and frustrated and 
exhausted policymakers and diplomatic practitioners alike with 
its stubborn resistance to the obvious political math of 1.2 
million barrels of oil a day and a mere 6 million citizens. 
Caught up in the endorphins of revolution, many assumed that 
Libya, like Athena from the head of Zeus, would turn into Dubai 
on the Mediterranean and that we could all go away. In 
hindsight, clearly it was wishful thinking because Libya was 
not--the landscape was not a tabula rasa. Libya has a history 
like any other place, and that history is one of fragmentation, 
even preceding Qaddafi.
    What I have often said to people is that Qaddafi was not 
the creator of Libya's fragmentation. He certainly exploited it 
using the oil wealth that he had at his disposal, and I think 
it is important to remember that he deposed King Idris without 
firing a shot when he came in. He used that oil wealth much as 
a cartel warlord would do to extort, to bribe, to bring into 
power actually very disparate parts of the country. Libya has 
always existed. As Julius Caesar said, like Gaul, it is three 
separate entities--Tripolitania, Cyrenaica, and Fezzan--with 
different historical and political backgrounds, and which 
explain to us often the different influences at play to this 
day in each of those regions from international partners.
    When Qaddafi died, in effect Libya was a mafia without a 
don, and that is the challenge that we have now. Qaddafi was 
gone, but his legacy remained.
    Understanding this backdrop is very important to 
comprehending the deep divides and political antagonisms that 
followed the revolution, which I concluded not long after my 
arrival in Tripoli in 2013 was for all intents and purposes 
unfinished. There had been a highly touted parliamentary vote 
in 2012, in July 2012, but essentially that is the equivalent 
of purchasing a nib for a fountain pen that does not exist. 
There was no government behind it and there still remains no 
effective government behind that.
    I do not want to repeat a lot of what is said here. I have 
submitted rather lengthy background notes, which I hope people 
will read because it contains a bit of a different narrative. 
Many people have described the lines, the splits in Libya as 
somehow secular nationalist versus Islamist. Others, myself 
included--and I suspect that Dr. Wehrey would agree--view the 
situation more in terms of status quo ante elements, some who 
were pro-Qaddafi versus democratic revolutionary elements, some 
Islamists with ideological extremists on both sides. The 
revolution revealed, together with true patriots, a significant 
number of whom were educated in the United States and elsewhere 
in the West and some unabashed ideologues, a number of, as Dr. 
Wehrey has said, opportunistic bedfellows whose political 
promiscuity for material gain often blurred distinctions.
    I will not go into the whole narrative of the talks and the 
long talks there, but I would agree with Fred and as we have 
looked over it, that over time, as we were there observing on 
the ground and working to advance our mutual interests, that it 
soon became very clear to us that when we were dealing with 
areas that did not affect the national patrimony or the 
appearance of giving advantage to either military side, we were 
able to accomplish things. On the other hand, efforts to train 
elite special forces and then to respond to then Prime Minister 
Ali Zeidan's April 2013 appeal to G7 leaders to help him build 
a general purpose force, we were frustrated due to that 
competition, that fractiousness, and the lack of any unified 
command and control system.
    Interestingly, throughout the Qaddafi-era, technocrats who 
were entrusted with the Central Bank, with the National Oil 
Company, and with the Libyan Investment Authority, were left 
largely alone to do their business, indicating to me that 
Libyans in fact did not want to disturb their wealth, their 
national wealth. And in fact, we worked pretty closely behind 
the scenes with them to ensure that that remained the case.
    Now, unfortunately, in the latter years and following the 
negotiations, as the competition has become more fierce, there 
have been efforts by some to create competing authorities to 
the dismay, I would say, of the average Libyan whose primary 
concern is that he or she have enough to eat, to communicate, 
and, ideally, to travel.
    I would only say against this background of Tripoli's 
political disarray, which was significant, Benghazi continued 
to suffer a spate of brazen assassinations and lawlessness. The 
government had, for all intents and purposes, removed itself 
from Benghazi with the international community. And this is 
when Khalifa Haftar first appeared at the time in February, 
February of 2014, at the time of the dissolution basically, or 
the agreed dissolution of the GNC, or that it would be, and 
went on the television what we always called an electron coup, 
calling on Libyans to rise up and join him against the illegal, 
unlawful GNC, and corrupt. He did not stir much response in 
that effect. He went back underground, only reappearing in May 
in Benina in Benghazi when he declared his basically vigilante 
war against individuals he constituted responsible, or he 
condemned as responsible, for Benghazi's blood-soaked anarchy.
    Together with this, we had--again, you know the story--the 
narrative of the national elections that were held in 2014. I 
hope you will read carefully my paragraph on that because my 
narrative, my understanding--and I was on the ground--was a bit 
different in response to counter-threats and threats of Haftar 
moving into Tripoli and the declaration by this time of the 
people on the Tobruk side that the dialogue was no longer 
necessary. The Misratan militias acted preemptively and, of 
course, encircled to drive the Zintan militias out of Tripoli, 
which meant taking them out of areas that they had conquered 
during the revolution. This was a lot again and again and again 
about booty, about revolutionary booty, people holding onto 
assets, whether it be the airport, the Tripoli tower that held 
the Libyan Investment Authority, the Islamic Call Center that 
was an important center under Qaddafi and later on in terms of 
territory. This fighting over this Zintan-occupied territory 
that others felt they had no right to is what led to our 
withdrawal and led to eventual withdrawal of all diplomatic 
members or diplomatic institutions or missions in Libya at the 
time.
    I will not get into the boycott. I will offer a couple of 
things. Against this chaotic background, despite the political 
disarray, the United States, during my tenure as chief of 
mission, did conduct a number of missions successfully, to 
include the capture of both Anas Al-Libi and Benghazi suspect, 
Abu Khatallah, while engaging credibly with all sides in the 
political reconciliation talks and with the support of 
successive Libyan governments. In other words, this is not a 
matter that requires us to pick and choose. Libyans were the 
first to assert the presence of ISIL and Daesh in Derna and to 
seek U.S. assistance in removing them. The Misratans were the 
first to draw our attention to the growing ISIL presence in 
Sirte, a presence reportedly accommodated by members of the 
Gaddaf ad-Dam tribe, who were historical enemies of the 
Misratans who earlier had affiliated for similarly 
opportunistic reasons with Ansar al-Sharia, another terrorist 
group.
    We can talk about ISIL later, but I think you have covered 
the road map there.
    Let me just say in conclusion--and we can get into the 
questions later--that Libya is not engaged in a traditional 
civil war based on intractable ideological differences. This is 
a war of attrition aimed at controlling, not destroying, 
critical infrastructure in the absence of a trusted 
administrator of national wealth. Historically, exhaustion, 
impoverishment, or physical hurt have proven the prime 
motivators for arriving at negotiated solutions. But as long as 
different factions, who thus far have been fairly evenly 
matched in terms of holding their turf, continue to believe 
they can count on external support to tip the scales and avoid 
reaching the limits of that impoverishment, hurt, or 
exhaustion, intermittent, low-intensity warfare will continue, 
contributing to human suffering, refugee flows, and penetration 
of Libya's vast territory by foreign fighters, Al Qaeda, and 
ISIL and Daesh. This is good neither for Libya, nor for us, nor 
for our European partners.
    But any Libyan solution will require buy-in at the lowest 
levels, at the municipal levels for a governing regime that 
ensures the equitable distribution of national wealth--in this 
case, oil revenues--a certain degree of autonomy, including on 
security matters, at local and regional levels, and the 
reintegration of militias and the rehabilitation of their 
members. It must be inclusive and allow for the return and 
rehabilitation of all Libyans, no matter who they supported in 
the revolution. It must begin with a ceasefire, monitored by 
the international community with Libyan acquiescence and 
support, as well as the gathering of heavy weapons throughout 
the country and continued cooperation in the war against ISIL, 
Daesh, and others wishing to exploit Libyan territory. Libyans 
must agree to all of this. And I would note here that----
    The Chairman. If we could come to a conclusion here.
    Ambassador Jones. Okay. I will conclude.
    Let me just say a civil conflict--Libya is not easy, but it 
is a worthwhile project. There is no alternative. Legitimacy 
cannot be imposed. It must be earned. Libyans have not asked us 
to fight their battles for them. The least we can do is support 
their dreams, which were inspired frankly by our example.
    Thank you.
    [The prepared statement of Ambassador Jones follows:]

           Prepared Statement of Ambassador Deborah K. Jones

    Mr. Chairman, Distinguished Members of the Committee, Honored 
Guests: It is my distinct honor to appear before you today to address 
the important and vexing matter of Libya, a country that since being 
voted into existence by the United Nations General Assembly in 1949 has 
both faced and presented an array of challenges along its difficult 
path towards responsible, durable statehood. I preface my remarks by 
underscoring that, having retired from the Foreign Service in November 
last year, my observations are my own and do not necessarily reflect 
current U.S. policy, nor do I have access to current intelligence and 
operational plans. Finally, I am ever mindful of the cautionary note 
proffered by the last British governor of Jerusalem, Sir Ronald Storrs, 
who said ``the Near East is a university from which the scholar never 
takes his degree.'' Or hers, I would add, after 34 years serving 
largely in that part of the world.
    Libya confounds policy makers and diplomatic practitioners alike 
with its stubborn resistance to the ``obvious'' political math of 1.2 
million barrels of oil a day and a mere 6,000,000 citizens. Caught up 
in the endorphins of revolution, many presumed that--like Athena from 
the head of Zeus--a sort of ``Dubai on the Mediterranean'' would emerge 
following the overthrow of Gaddafi. In hindsight it was wishful 
thinking, as though the Libyan landscape were some sort of tabula rasa, 
separate from its history. Competing narratives and a certain tactical 
impatience, combined with urgent humanitarian concerns, have challenged 
the patient policy that has tried to accommodate both the inherently 
organic nature of political institution building and our very real 
national security concerns. I believe this remains the correct policy, 
presuming our national security objective remains a stable, secure 
Libya that is evolving into a nation-state both protective of and 
accountable to its citizens and compliant with international law.
    Geography is destiny, the saying goes. Strategically located in the 
heart of north Africa, closer to Rome than to Mecca, Libya's vast, 
largely arid expanse includes 1,000 miles of Mediterranean coastline 
that favored imperial trade and piracy alike. Like Caesar's Gaul, Libya 
is divided into three parts--Tripolitania, Cyrenaica and the Fezzan, 
each with its own political history and external alliances. The area 
has a long history of being traversed, ruled and occupied by others, 
most notably the Italian Fascists whose ``demographic occupation'' 
resulted in nearly 150,000 Italian citizens--at the time approximately 
one fifth of Libya's population--appropriating much of the country's 
only fertile region, along the coastline. A crucial WWII battleground, 
devastated Libya found new tenants in the allied victors, the United 
States appropriating, with payment, what had been an Italian airbase, 
renaming it Wheelus and remaining with nearly 15,000 DoD personnel and 
family members, hospital, housing, school, cinema and bowling alley--in 
essence a Little America, as one former ambassador put it--until 1970. 
With this history, it's no surprise that Libyans were highly resistant 
to foreign military presence following the 2011 revolution.
    When Colonel Gaddafi emerged from Benghazi in 1969, displacing 
(without firing a shot) the U.N.-designated monarch, Mohammed Idriss 
Senussi (he too from Cyrenaica, the leader of a religious order 
established by the then-Ottoman rulers of Libya, tapped by the British 
to lead Libyan resistance to the encroaching Italians; history indeed 
rhymes), he deployed Libya's newly found oil wealth to assert his rule 
over a nation of three disparate regions and a motley political 
landscape of city-states, tribes and oases. Raising the banner of Pan 
Arab nationalism, Gaddafi bought allegiance, stifled competition and 
kept potential foes at each other's throats in the manner of a criminal 
cartel lord. Gaddafi did not create the fragmentation that was Libya 
but he most assuredly exacerbated its vulnerabilities with his ``spoils 
system.'' To survive in the absence of independent institutions and any 
neutral ``rule of law,'' Libyans learned to be ethically fluid, 
transactional and opportunistic. When Gaddafi departed the scene, 
Libya, by now both fragmented but heavily networked, became essentially 
a mafia without a Don. Gaddafi was gone but his legacy remained.
    Understanding this backdrop is important to comprehending the deep 
divides and political antagonisms that followed the revolution, which I 
concluded not long after my arrival in Tripoli in June 2013 was, for 
all intents and purposes, unfinished. Despite highly touted 
parliamentary elections in July 2012, the government was sharply split 
along lines some described as ``nationalist'' vs ``Islamist.'' Others 
(myself included) viewed the situation more in terms of ``status quo 
ante'' elements, some pro-Gaddafi, vs ``democratic revolutionary'' 
elements, some Islamist, with marginal ideological extremists on both 
sides. The revolution had revealed, together with true patriots (a 
significant number of whom educated in the U.S. and elsewhere in the 
West) and some unabashed ideologues, such as the mufti, a number of 
opportunistic bedfellows, whose political promiscuity for material gain 
often blurred distinctions.
    The parliament, or General National Congress (GNC) was gridlocked 
over matters involving the distribution of power between executive and 
legislative authorities, while heavily armed militias, increasingly 
affiliated with political wings, behaved as rival gangs, patrolling 
physical turf gained during the revolution. Militias opposed to 
allowing former Gaddafi-era officials access to political office, and 
the accompanying distributive control of national wealth, pressured the 
GNC into adopting the controversial Political Isolation Law (PIL) in 
May 2013, while the rival Zintan were accused of kidnappings, theft and 
the extortion of travelers from Misrata wishing to fly out of Tripoli's 
international airport, which they held. But lethal exchanges were rare. 
It appeared to observers on the ground that these frictions were driven 
by a desire for control of national assets, not by any ideological 
divide in a country 98% of whose inhabitants adhere to the same 
conservative Maliki school of Sunni Islam.
    We were able to advance mutual interests in those areas not 
involving the national patrimony or perceived, in hindsight, to tilt 
the balance between rival security forces. In my first six months on 
the ground, we signed bilateral agreements to preserve Libya's rich 
cultural heritage; create a bilateral commission for Higher Education; 
enhance law enforcement cooperation; prepare for future investment 
(Trade and Investment Framework Agreement); and continue important work 
together with the Organization for the Prevention of Chemical Weapons 
and others to destroy Libya's precursor stockpiles. On the other hand, 
efforts to train elite special forces and to respond to then-Prime 
Minister Ali Zeidan's April 2013 appeal to G-7 leaders to help him 
build a General Purpose Force were frustrated due in large part to 
Libyan fractiousness and the lack of any unified command and control 
system.
    Interestingly, those Gaddafi-era technocrats entrusted with 
overseeing the operations of Libya's most important national assets, 
the Central Bank, the National Oil Company, and the Libyan Investment 
Authority, were left largely free to do their work. Oil revenues, 
occasionally affected by extortionate tribal interference with 
pipelines, continued to flow into the Bank which in turn distributed 
salaries and subsidies to all, including rival militias and eventually 
governments. Similarly, Libya's ministry of Communications continued to 
provide full service, including mobile Wifi, throughout the country. I 
understand there have since been efforts by some to create competing 
authorities, to the dismay of the average Libyan whose primary concern 
is that he or she have enough to eat, to communicate and ideally to 
travel.
    Sometime following my arrival, my diplomatic colleagues and I 
discovered that the Special Representative of the Secretary General 
(SRSG) Tarek Mitri, who headed the U.N. Special Mission in Libya, or 
UNSMIL, had quietly engaged with the two largest blocs in the GNC, the 
National Forces Alliance led by ``nationalist, secularist'' Mahmoud 
Jibril and the Justice and Construction Party, associated with the 
Muslim Brotherhood, to negotiate a modus vivendi. This soon morphed 
into a group of nearly 40 GNC political actors, who after nearly 5 
months of confidential dialogue could agree only that they wanted a 
government that was ``not central,'' a system that was ``somewhat 
presidential'' in nature, and that ``sharia was an acceptable basis for 
Libya's constitutional law.'' By February 2014, which many interpreted 
as the deadline implicit in the 2012 constitutional declaration for the 
GNC to have completed a series of actions or yield to new elections, 
the SRSG declared a strategic pause as the talks broke down.
    While Tripoli was dealing with political disarray and occasional 
militia shenanigans, to include the brief abduction of PM Zeidan on 
October 10, 2013 (shortly following the U.S. capture of Al Qaeda 
affiliate Abu Anas Al-Libi for his role in the 1998 bombings of U.S. 
embassies in Nairobi and Dar es-Salaam), Benghazi continued to suffer a 
spate of brazen assassinations in the absence of any state judicial or 
effective law enforcement authorities. In February 2014, retired 
General Khalifa Heftar appeared on Libyan TV in a professionally 
produced video, dressed in military uniform, calling on the Libyan 
people to rise up and throw out the ``corrupt'' GNC and to show their 
support for him by rallying in public squares. Reaction was muted and 
Heftar--whose location was unknown--quietly disappeared. Meanwhile, 
under increasing pressure, a GNC political committee agreed to hold new 
elections in June 2014.
    Frustration with the slow pace of the SRSG's dialog efforts led the 
U.K. and U.S. to initiate our own, independently negotiating ``Ten 
Principles'' with Libyan political actors, capped by a March 2014 visit 
from then-Deputy Secretary of State Bill Burns, who gathered for the 
first time at the same table eight parties representing the spectrum of 
Libya's political divisions. As was often the case, success was soon 
followed by crisis when Libyan petroleum guards in the eastern sector 
facilitated the illicit offloading of oil to a mystery tanker of North 
Korean registry, leading to the ship's interdiction by U.S. SEAL team, 
the forced resignation of PM Zeidan, and his replacement by Abdullah 
al-Thinni (who remains Prime Minister). In May, Heftar re-emerged, this 
time in Benina military airport in Benghazi, with a reconstituted 
``Libyan National Army'' (LNA) vowing to defeat within 2 weeks the 
Islamist militias he declared responsible for Benghazi's blood-soaked 
anarchy. In Tripoli, PM al-Thinni enjoined foreign missions to avoid 
contact with Heftar, whom he accused of a coup attempt against the 
government, reportedly issuing a warrant for his arrest.
    National elections were held in June 2014, with approximately 22% 
of the qualified electorate voting. As in July 2012, there was a clear 
majority for non-aligned ``technocrats.'' Jubilant in their victory, 
the self-styled ``nationalists'' declared the dialogue process 
unnecessary, refusing any formal handover by the outgoing GNC that 
would imply that body's legitimacy. Reconciliation talks ceased and 
rumors spread that Heftar--who was finding it more difficult than 
anticipated to defeat the Benghazi Revolutionary Council militias--
would soon enter Tripoli, accompanied by various tribal allies, to 
forcibly expel rival militias, in particular the ``Shields'' empowered 
by the GNC to ``protect Tripoli.'' Acting pre-emptively in response to 
these rumors, following a lethal exchange between rival militias near 
the U.N. headquarters (which led to the withdrawal of U.N. personnel), 
a group of Misratan militias, led by GNC supporter Saleh Badi, entered 
Tripoli at several points, dislodging the pro-Tobruk Zintan militia 
from their various strongholds at Tripoli's International Airport 
(which was severely damaged in the fighting and planes destroyed), the 
Islamic Call Center, Tripoli Tower (home to the Libyan Investment 
Authority) and several other military sites held by the Zintan. This 
resulted in the eventual departure of most foreign missions from 
Tripoli in July 2014. The newly elected and internationally recognized 
House of Representatives (HoR), minus its boycotting members from 
Tripoli and Misrata, decamped in early August to Tobruk, a plan I was 
told had been in the making even prior to the outbreak of hostilities, 
funded by a wealthy Libyan with ties to the Gaddafi family.
    U.N.-led talks continued, now focused on bringing together 
boycotting HoR members and those in Tobruk, led by a newly-appointed 
Bernardino Leon, whose energetic and creative engagement included 
regional players whose historical ties or political interests were 
entwined with Libya, and often at cross purposes with one another, 
affecting Libya's natural political valence and contributing to a 
volatile situation. In November 2014, Libya's Supreme Court deemed the 
process by which the June 2014 elections were held to have been 
illegal, which meant the nominally defunct GNC had to be brought back 
into the process. The long and the short of it is that following long 
months and nearly two and a half years of increasingly focused and 
inclusive negotiations, with the support of all permanent members of 
the U.N. Security Council (the U.S. having proposed and facilitated the 
inclusion of Russia and China in May 2015), and the involvement of 
three separate SRSG's, Libyans reached agreement in December 2015 on a 
compromise formula for creating a Government of National Accord (GNA) 
and a Presidency Council entered Tripoli in 2016 but has failed to 
consolidate control, in large part because armed groups on either side 
refuse to yield to civilian authorities.
                  counterterrorism operations in libya
    Against this chaotic backdrop and despite the political disarray, 
the U.S. during my tenure as Chief of Mission conducted a number of 
missions successfully, to include the capture of both Anas Al-Libi and 
Benghazi suspect Abu Khatallah, while engaging credibly with all sides 
in the political reconciliation talks and with the support of 
successive Libyan governments. Libya's complex political terrain 
requires careful navigation. For example, many Libyans were prepared to 
disregard Libyan Ansar al-Sharia (AAS), who in their view provided 
largely social assistance, while welcoming action against Tunisian AAS, 
who they considered extremists exploiting Libyan resources to conduct 
their missions. Libyans were only too happy to have the U.S. take out 
foreign terrorists operating on their soil, but were dismayed when we 
apprehended Anas Al-Libi and Abu Khattala. Libyans were the first to 
assert the presence of ISIL/Daesh in Derna and to seek U.S. assistance 
in removing them. Misratan individuals associated with the nominally 
``Islamist'' side of this conflict were the first to draw our attention 
to the growing ISIL presence in Sirte, a presence reportedly 
accommodated by members of the Gaddaf ad-Dam tribe, historical enemies 
of the Misratans who earlier had affiliated for similarly opportunistic 
reasons with AAS. Misratan military personnel led efforts to destroy 
ISIL in Sirte (and were later accused by Sirte elders of looting and 
other negative behaviors).
                             isil in libya
    ISIL's first declaration in Libya appeared in June 2014 in Derna, 
where extremists had returned from fighting in Syria and Iraq. Taking 
advantage of Libya's chaotic situation, elements later appeared in 
Sabratha in the west, in Sirte and in Benghazi, with ISIL claiming 
attacks in Tripoli in January and September of 2015, the first taking 
the life of a private American security contractor. By 2015 ISIL in 
Libya had reached its peak, with some 2000 fighters, many of them from 
Tunisia, sub-Saharan Africa (Mali) and elsewhere in the Maghreb, as 
well as several hundred returnees in the east from fighting in Syria 
and Iraq. By mid-2015, with the help of AFRICOM, the ``Sabratha 
Revolutionaries'' earlier associated with Libya Dawn (the western 
coalition assembled in reaction to Heftar's Dignity movement) were able 
to defeat ISIL elements in Sabratha. ISIL was also expelled by 
revolutionary fighters from Derna. Libyans opposed to Heftar suggest 
that his forces allowed ISIL members safe passage from Benghazi and 
Derna to relocate in Gaddafi's former stronghold of Sirte, questioning 
how they otherwise were able to slip through LNA checkpoints. In Sirte, 
they eventually were defeated by Misratan forces in cooperation with 
the GNA and AFRICOM airstrikes in an extended operation known as ``Al-
Bunyan al-Marsous,'' or ``Impenetrable Foundation,'' carried out over 
an extended period.
                             khalifa heftar
    Heftar's role is also complex and has complicated the 
reconciliation process. His initial emergence in Benghazi, taking a 
vigilante approach to defeating those he considered Islamist 
extremists, was cheered by some and decried by others who noted that 
his polarizing tactics had pushed many moderates into the extremist 
camp for the sole purpose of preventing his rise to power. At the same 
time, they argue, he created an opening for ISIL/Daesh to exploit the 
chaotic situation by prolonging the political vacuum. His prolonged 
and--according to many--frankly incompetent campaign was marked by 
conflict and a lack of cohesion within his ranks, and floundered 
without significant external assistance, leading many to fear he is 
merely a tool in foreign hands. Others assert he is prepared to resort 
to opportunistic alliances (for e.g. with the Salafist Madkhalis) and 
to engage in severe human rights violations against Libyans for the 
sake of gaining power.
    In any event, as a practical matter, at no time during my 
engagement with Libya did Heftar control more than 12% of Libyan 
territory. Libya is too vast to rely on one partner, particularly in 
such a politically fraught environment. It was my policy advice that to 
defeat Daesh/ISIL in Libya, we needed to partner with Libyans across 
the spectrum, an approach agreed to by the Obama Administration. 
Embassy Tripoli facilitated many of the contacts between AFRICOM and 
western militia leaders that enabled this successful collaboration. I 
am not aware of Heftar's contributions to combating ISIL in Libya.
                               conclusion
    Libya is not engaged in a traditional civil war, based on 
intractable ideological difference. This is a war of attrition aimed at 
controlling--not destroying--critical infrastructure in the absence of 
a trusted administrator of national wealth. Historically, exhaustion, 
impoverishment, or physical hurt have proven the prime motivators for 
arriving at negotiated solutions. As long as different factions--who 
thus far have been fairly evenly matched in terms of holding their 
turf--continue to believe they can count on external support to tip the 
scales and avoid reaching the limits of their impoverishment, hurt or 
exhaustion, intermittent, low intensity warfare will continue, 
contributing to human suffering, refugee flows, and penetration of 
Libya's vast territory by foreign fighters, Al Qaeda and ISIL/Daesh. 
This is good neither for Libya nor for us.
    Stability requires good governance. The fundamental role of any 
government is to provide its citizens equitable access to the nation's 
wealth, however defined, through the provision of security, a 
regulatory framework for commerce, and rule of law. Any ``Libyan 
Solution'' will require buy-in at the municipal levels for a governing 
regime that ensures the equitable distribution of national wealth (in 
this case oil revenues); a certain degree of autonomy (including on 
security matters) at local and regional levels; and the reintegration 
of militias or the rehabilitation of their members. It must be 
inclusive and allow for the return and rehabilitation of all Libyans. 
It must begin with a ceasefire, monitored by the international 
community with Libyan acquiescence and support, as well as the 
gathering of heavy weapons throughout the country and continued 
cooperation in the war against ISIL/Daesh and others wishing to exploit 
Libyan territory. Libyans must agree to all of this. Otherwise, they 
must accept that the international powers will increasingly act in 
their own immediate, short-term national interest. But ``hit and run'' 
is not a viable long-term strategy.
    Libya is not easy. Civil conflict creates deep and lasting scars, 
as we have seen in our own experience. But it is a worthwhile project, 
and there is no alternative. As our Founding Fathers knew so well, 
legitimacy cannot be imposed; it must be earned. I have shared with 
Libyans both enormous joy and tremendous sorrow, deep frustration and 
moments of profound emotion and reconciliation during the negotiation 
process that brought me to tears. I cannot forget the optimism and hope 
of Libya's youth and their desire to create a modern Libya that is 
inclusive and nurturing of that hope; I cannot forget my conversations 
with former ``thewar,'' or revolutionaries, young men, brave, scruffy 
and unsure, demanding of the politicians wise leadership and good 
governance so that they can raise families and work with dignity in a 
safe environment.
    Libyans have not asked us to fight their battles for them; the 
least we can do is support their dreams, dreams inspired by our 
example.
    Thank you.

    The Chairman. Thank you so much.
    Senator Cardin.
    Senator Cardin. Well, let me thank both of our witnesses.
    There are clearly great differences between Syria and 
Libya. Syria has ethnic clashes that are very deep and 
historic, whereas Libya does not have that burden. But we saw 
where Russia intervened in Syria and the damage it caused by 
Mr. Putin's engagement in Syria, making it extremely difficult 
to get all sides together in a peace process, which is the 
ultimate answer in Syria, as it is the ultimate answer in 
Libya.
    So now we see very disturbing trends about Russia's 
engagement in Libya. We see where they are actively engaged in 
supporting this General Haftar, who has been extremely 
difficult in recognizing a civilian government and, according 
to Human Rights Watch, has committed war crimes.
    So my question first would be what is Russia's intentions 
in Libya. Why have they been able to get the cooperation of 
Egypt, one of our partners, in allowing the use of Egypt's 
facilities in the military operations in Libya? And what is the 
U.S. interest in dealing with Russia's engagement in Libya?
    So, Dr. Wehrey, do you have some suggestions here to try to 
help me understand the road map here?
    Dr. Wehrey. Sure. Thank you.
    Well, again, I think it is one of Libya's saving graces 
that it is not serious. So the level of regional interference, 
international interference I think pales compared to Syria. 
That regional interference is not simply Russia. And I would 
point to the Gulf States as the most harmful actors in a lot 
this, stemming back to the 2011 revolution where you had two 
Gulf States playing out their regional rivalry on Libyan soil.
    The Egyptian role I think came before Russia. The Egyptians 
have had longstanding economic and security interests in Libya. 
They were among the first backers of General Khalifa Haftar's 
Operation Dignity when it started in 2014. And indeed, when 
General el-Sisi took power in Egypt, that really was felt in 
Libya. So again, the Egyptian policy toward Libya really 
shifted after Sisi.
    Senator Cardin. Is it your testimony that the respect for 
civilian controls is critical to the stability of that country? 
General Haftar has certainly not been helpful in that regard.
    Dr. Wehrey. Correct.
    Senator Cardin. So Russia seems to be siding up with 
General Haftar.
    Dr. Wehrey. Exactly.
    So, enter Russia. And so again, I think Russia's interest 
in Libya stems back to the Qaddafi era. They had enormous arms 
contracts. They had infrastructure projects. They explored a 
naval base. But General Haftar is a useful ally to them. They 
sensed a vacuum. It is very useful for their narrative. NATO 
broke the country. Here comes Russia to clean it up, so to 
speak. They are backing him reportedly with spare parts, with 
training, with medical care. They printed currency for the 
Eastern government. And this is one of the alarming things 
about Libya: the parallel institutions. So this Eastern, 
unrecognized faction has its own central bank. Russia was 
printing Libyan currency to help prop it up.
    So again, I think their role has been unhelpful. It has 
been theatrical at times. This visit of General Haftar to the 
aircraft carrier was highly theatrical. But the question is, 
can they really pull a Syria in Libya, and do they want basing 
or do they want to present themselves as an indispensable 
broker? They want to be the ones that forge a new government 
that is favorable to their strategic and economic interests.
    Senator Cardin. So if the United States were to withdraw 
interest in Libya, would that give a greater opening for 
Russia?
    Dr. Wehrey. I think so, Senator, yes. And again, my 
conversations with Libya, with the United Nations chief last 
week is everyone is on edge waiting for the U.S. to give a 
signal. So the absence of a signal creates a freeze. It creates 
a vacuum, and that is an invitation for other powers to----
    Senator Cardin. And I have heard that also. What type of 
signal are they waiting for?
    Dr. Wehrey. Well, I think a high visibility signal about 
our diplomatic engagement, about our support for the 
government, I mean, the role of special envoys from the State 
Department, of supporting the Europeans, I think just a more 
visible and vocal signal, and certainly not a signal that we 
are washing our hands of this country.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. If I could, before I turn to Senator Johnson. 
I have saved time for interjections.
    But, I mean a signal. I am sorry. I heard your two points 
and our staff was in yesterday talking about that. And I 
realize we were certainly very helpful in Sirte with what 
happened with ISIS. But I am not understanding what that really 
means relative to our leadership there. I am truly seeking an 
answer. I know that Italy, France, and other countries are very 
involved. But tell me what it is specifically that the United 
States should do to move towards a political agreement here.
    Dr. Wehrey. Again, I think just a more visible support to 
these regional initiatives, statements, I think convening some 
sort of new negotiating track in tandem with the United 
Nations, in tandem with these regional partners, and signaling 
I think also to the Libyan people, to the Libyan political 
actors that we are prepared to engage along a broad spectrum of 
initiatives to really help Libyan society, to help the Libyan 
government.
    I think one example of what I am talking about was when the 
Libyan factions moved their fighting to the south, when they 
started clashing south of the oil crescent, the P5 issued a 
statement all together, all five of the P5, saying that this 
was bad for Libya. And that is the sort of consensus where the 
U.S. needs to play a leading role, not just a background role.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I want to thank the witnesses.
    Just in my notes, I am seeing political disarray. I see 
Libyan technocrats. Do they still exist? Is there any hope of 
reassembling the Libyan technocrats to provide kind of a 
governing authority? I will ask the Ambassador.
    Ambassador Jones. I think when it comes to the National Oil 
Company, to the bank, and to others, there are technocrats. 
However, the political leadership is in disarray and needs 
guidance. It needs support. And we were able to do that as long 
as we were engaged with that. And I think that is important to 
remember. We have not had physical presence of a diplomatic 
nature in Libya since we withdrew in July of 2014. That sends a 
huge message to the Libyans. And unfortunately, obviously, for 
political sensitivities and the rest, the U.S. was very 
hesitant to reinsert following the second withdrawal personnel 
into Libya, worried about the paralysis that might cause at 
home. But in fact, we brought the Russians and the Chinese into 
the dialogue process. We were very actively engaged in that. 
And having the U.S. on board signaling that it supports a 
political, as well as a military solution is extremely 
important.
    On a purely practical note, Haftar has never, at least in 
my time there and I do not think yet--Fred will know this--
controlled more than 12 percent of the country at any given 
time. It is huge. You are never going to defeat ISIS or any 
other group that is there unless you have cooperation across 
the board. If you go into supporting Haftar wholeheartedly, you 
will have a civil war. It will turn into something existential 
for Libyans I am afraid.
    Senator Johnson. How many significant militias are there? 
How many significant groups are there competing?
    Dr. Wehrey. I would say there are thousands. I mean, one of 
the tragedies of Libya is that power is so fragmented. So it is 
neighborhood by neighborhood. It is town. Even within the town 
of Misrata, there are 100. But within Tripoli, there are 
probably four or five.
    Senator Johnson. Are there major ones? We hear the same 
thing in Syria, 1,200. But I mean, are there 10 major groups, 
or is it really that----
    Dr. Wehrey. It really is that fragmented. I mean, there are 
talks now about, with this track of security dialogue, of 
bringing in--you know, who would be the maybe--you probably 
could get 12 to 15 leaders of the armed groups, and that would 
get you there. But again, the chance for spoilers to play a 
role is very high.
    Senator Johnson. So with that level of fragmentation, I 
mean, what role has diplomacy? You really do have to start with 
military control. Correct? I mean, somebody is going to have to 
control the ground militarily. Somebody is going to have to 
bring these factions together.
    Dr. Wehrey. I mean, in certain areas and towns, a lot of 
these militias are tied to towns, and they have arrangements 
with municipal councils, so in Zintan, Misrata, even in the 
east in Tobruk and Benghazi. So there is a measure of control. 
It is negotiated control between businessmen, between municipal 
councils. So the notion that you would have one actor unify the 
country through a conquest is fanciful. I think what we need to 
look at is sort of growing it from the ground up.
    Senator Johnson. Who is going to be the countervailing 
force to, right now, Haftar and Egypt and UAE and Russia? Who 
would be the most trusted foreign power to try and exert some 
level of stability and control?
    Dr. Wehrey. Foreign power?
    Senator Johnson. I mean, for example, was Italy not the 
primary trading partner prior to the----
    Dr. Wehrey. Italy is playing a huge role right now in terms 
of brokering a dialogue. They are playing a role in Tripoli and 
Misrata. They have offered help to the east.
    Senator Johnson. What kind of military presence does Italy 
have in Libya right now? Do they have troops?
    Dr. Wehrey. Sorry?
    Senator Johnson. Does any foreign power have troops there?
    Dr. Wehrey. There is a contingent of Italian soldiers at a 
hospital in Misrata. There are reportedly troops in Tripoli 
doing some very low-level training.
    Senator Johnson. But they are very limited numbers. 
Correct? Nothing to exert control. Just kind of help and 
advice.
    Dr. Wehrey. Correct.
    Senator Johnson. Do they need more? I mean, should we be 
encouraging European allies to step up to the plate? Somebody 
is going to have to insert some kind of military power to try 
and gain control. Are they not?
    Dr. Wehrey. I do not think so, no. I mean, this is not 
something--I mean, at the invitation of Libyans--this is 
something that needs to be agreed upon, a stabilization force 
under the mandate of the U.N. or EU. But that needs to be 
worked out with Libyans. I think any foreign presence--you 
know, it could be an antibody. It could play into the jihadist 
narrative. I think what needs to happen first is the Libyans 
need to agree upon a road map for their military. There needs 
to be a plan for the security of Tripoli.
    Senator Johnson. It is in political disarray, and there are 
thousands of militias. Again, I am trying to come up with what 
is it really going to take. It is going to require some kind of 
international coalition invited in by the Libyans to try and 
stabilize the situation first. Correct?
    Dr. Wehrey. I do not think so, no.
    Ambassador Jones. No.
    Dr. Wehrey. I think what is happening is there are talks 
underway, including a security track, to try to get these armed 
group actors on board for organization, for a structure, for 
leadership, for who gets to stay in the military, for which 
militias have to leave, for demobilizing the young men. A lot 
of these young men want to go back to jobs and schooling. So 
there needs to be a Libyan-led strategy for doing this.
    Senator Johnson. Okay.
    Thank you, Mr. Chairman.
    The Chairman. And the Libyans are asking for that?
    Dr. Wehrey. They are, yes.
    The Chairman. Including Haftar?
    Dr. Wehrey. Sorry?
    Ambassador Jones. No. Haftar is not asking for that.
    Dr. Wehrey. Haftar is talking to the U.N. about a military 
structure. The problem, though, is that he wants to be part of 
this Presidency Council. He wants to be supreme commander.
    The Chairman. It is kind of reality, not a problem. Is it 
not?
    Ambassador Jones. It is a problem.
    Dr. Wehrey. It is a problem.
    Ambassador Jones. Because the reality is that the dispersal 
of heavy weapons and also the opposition to Haftar is so deep 
and the Misratans do have the capability, as we saw in July and 
August of 2014. They do have the command and control, and they 
do have the sense of protecting their own turf that will drive 
them to combat this if Heftar is in the lead. They have said 
before, when we were engaged with them in dialogue, that they 
were prepared to work with others in a command and control 
system. But Haftar's restated opposition to living with--to be 
subordinate to civilian command creates a lot of discomfort 
with people, particularly given some of his ties and the 
supporters outside of Libya where people do not know what the 
point is.
    I think all countries in the Security Council were in 
agreement that we wanted a stable Libya. But there are other 
factors here. We do have friends. We do have partners, 
including Egypt and others, who are adamantly opposed to the 
notion that any Islamist group or Muslim Brother group have any 
access to Libyans' wealth, which they believe will lead 
eventually to some kind of Islamist takeover and competition 
for their own principalities or their own governments. And so, 
therefore, their objective has been to do something that 
stabilizes it, that keeps it away, and Haftar has been a bit of 
a tool for them in that regard. Everyone recognizes that he has 
been unable to consolidate his gains outside of the Benghazi 
area essentially, and this has been going on now for 3 years.
    So I agree with Dr. Wehrey, with Fred, completely on this. 
Unless you have a Libyan agreement, again, on distribution, on 
an organization that is going to ensure transparent 
distribution of national wealth under a more localized 
government, they are not going to accept anything else. And 
they do not want foreign troops on the ground. This is a 
country that was devastated during World War II----
    The Chairman. I got it. Thank you so much.
    Senator Booker.
    Senator Booker. Yes. Dr. Wehrey, you write in your 
testimony--and I want to just read a portion. You said that the 
promotion of economic development and entrepreneurship, 
multilevel governance, education, and civil society is a vital 
adjunct to traditional counterterrorism tools like 
intelligence, surveillance, and reconnaissance, border control, 
train and equip, and direct action. And you seem to describe an 
environment where ISIS is thriving in areas where there is no 
government, no civil society, and they are taking advantage of 
the vacuum.
    And I just want to put that in the context of what seems to 
be administration policy right now in reducing State Department 
resources to build civil society. I mean, it is very shocking 
to me the sort of budget that they have outlined in light of 
what you seem to be indicating as a prescription to ultimately 
bring stability back to Libya.
    Could you comment on that?
    Dr. Wehrey. Well, I agree, Senator. And where ISIS set up 
camp in Libya, it was these marginalized areas that had fallen 
off the map of post-revolutionary Libya. So you look at a city 
like Sirte, Qaddafi's hometown, that was brutalized and 
neglected after the revolution; it was lacking services, 
lacking governance, lacking representation. There were tribes 
there that welcomed the Islamic State simply as protection, 
simply for what they provided. So it's very expedient.
    The same thing in the West. You had smugglers sort of doing 
deals with the Islamic State because there was no local 
economy. Down in the south, there is absolutely no governance. 
This is where AQIM thrives. The same thing in Benghazi.
    So, again, how do you deny the sanctuary? How do you 
fortify the resilience of Libyan society to jihadist 
penetration? And that is where a civil society, that is where 
municipal governance comes in and it is so essential.
    Senator Booker. Whatever the strategy is, once this 
administration presents one, part of that is essential that it 
is us doing that kind of civil society investments and building 
that the State Department is critically able to do.
    Dr. Wehrey. I think so, Senator, and us, along with local 
partners, along with the UNDP.
    I went down to southern Libya to a town called Ubari that 
is a very remote town that was wracked by tribal fighting. It 
has really just fallen off the map. There is nothing there. But 
the young people there talked about a USAID computer center 
that was set up that basically connected them to the globe. It 
gave them critical computer skills, and they were pointing to 
this. Unfortunately, the center was destroyed in fighting, but 
they look at that as a visible indication of U.S. commitment.
    Senator Booker. And another thing that sort of disturbs me 
is that we seem to be operating under an AUMF from 2001. And I 
am just curious. Is our intervention, both military and I hope 
to see more sort of civil society work--do you think the 
administration wants to continue to use the AUMF in 2001 as a 
justification for their intervention militarily? I will open 
that to either one.
    Ambassador Jones. I cannot say because I am not involved 
anymore because I am no longer in the government. But I am 
hearing from contacts on the special forces side and others 
that they are hearing signals that in fact we are essentially 
going to go to a hit and run policy in Libya as opposed to 
trying to knit together the kind of enduring solution that you 
were talking about.
    The Chairman. So let me, if I could. So what you are saying 
is it is going to be an ISIS-specific whack-a-mole issue. It is 
not going to be an enduring presence which would mean the 2001 
AUMF is operative. You do not hear any plans of any long-term 
ground. And you all are just saying it is unnecessary anyway. I 
am hearing nothing to that end.
    Ambassador Jones. Right. I am hearing what I call tactical 
impatience. People want to act against what they see there, 
really not considering the overall Libyan context, which is 
that Libyans, unlike Syrians or Iraq, do not have indigenous 
ISIS by and large. It is opportunistic, as Dr. Wehrey has said. 
And they do not want to share their wealth and will not allow--
they have been the ones to call ISIL out in their own country.
    Senator Booker. That is problematic for me on a number of 
levels. But I just want to jump real quick in my remaining few 
seconds.
    Human trafficking is a serious concern in this country. The 
IOM reported last month that migrants are being held hostage 
through slave markets in Libya, Niger, furthermore trafficking 
and smuggling from militias in Libya which are driving the 
conflict there. I just want to know if you have any input for 
us--either one--about what we should do to address this larger 
humanitarian crisis. Obviously, I imagine quelling the conflict 
that is allowing this to proliferate. But if this was a 
critical objective for the United States, what should we be 
doing?
    Ambassador Jones. Well, first, I am sorry to say that human 
trafficking, piracy, and slavery has been part and parcel of 
Libya's history even when you had a strong authoritarian 
government in Qaddafi, such as it was, because it is not 
something that they have really paid the kind of attention that 
the international community would like for them to pay.
    So, again, this is one of the areas that when you have a 
political dialogue and you have a government that engages 
across the country and makes the distribution of wealth part 
and parcel of working against those kinds of things, replacing 
those activities, smuggling, which has long been the bread and 
butter for many Libyans particularly in the south but also for 
those on the borders who have brought in sub-Saharan Africans 
especially and traded them and others. This is precisely the 
kind of thing that you can only address with civil society and 
with governance.
    Dr. Wehrey. Just to add to that, it is a symptom of Libya's 
economic collapse that the circle of complicity in this 
lucrative smuggling trade has really widened. So, again, down 
in the south, it is how people make their living. The same 
thing in the north. Promoting programs for alternative 
livelihoods down in the south--I mean, fixing Libya's economic 
crisis, but then again being careful who we partner with. The 
notion of training a Libyan coast guard--who are we talking 
about? Many of the coast guards are militia-run. They are, in 
fact, complicit with the smuggling trade. Returning these 
migrants to these horrendous detention centers--and I have seen 
several of them--is just simply inhumane and immoral.
    Senator Booker. Thank you.
    The Chairman. Thank you, sir.
    Senator Young.
    Senator Young. Thank you, Chairman.
    Ambassador, Doctor, thanks so much for your testimony here 
today.
    I just want to highlight the importance of the United 
States working on multiple fronts to defeat ISIS in Libya. You 
have spoken some to this. But on April 20th, President Trump, 
as you know, held a joint press conference with the Italian 
foreign minister. And at that press conference, he said he does 
not see a role for the United States in Libya apart from 
defeating Islamic State militants. And that was actually a 
press conference with the prime minister.
    Do you both agree that defeating ISIS in Libya or anywhere 
else, for that matter, is going to require the establishment of 
inclusive and effective governance, not just CT strikes?
    Dr. Wehrey. I do agree, Senator, absolutely 100 percent. As 
I outlined in my testimony, who joins ISIS? It is the losers in 
the political order. It is people that are shut out of the 
political process. So any government that excludes people on 
the basis of ideology or belief--those people are going to get 
radicalized, and it is going to increase the pool of terrorism.
    Senator Young. And that in turn has some ramifications for 
our needs to invest in USAID, State Department, and the civil 
society that they can help facilitate, bring to bear on some of 
the challenges in the region and the municipal administration 
that you spoke to that are necessary to bring stability. Is 
that correct?
    Dr. Wehrey. Absolutely, Senator. I mean, I think one of the 
bright spots in Libya is the fact the municipal authorities 
enjoy elected legitimacy. When you go around to towns, there 
are certain cases where they have had success. So I think one 
of the strategies that I am seeing from the United Nations and 
others is going straight to those municipal authorities, 
including the budget, I mean, helping them finance themselves. 
What is so worrisome about the Haftar-controlled east or the 
areas under General Khalifa Haftar's control is that he has 
replaced elected municipal officials with uniformed military 
governors.
    Senator Young. Ambassador?
    Ambassador Jones. I would only say again that in Sirte, for 
example, what we saw was support that was opportunistic for 
Sirte from groups who were politically opposed to the 
Misratans. It had nothing ideologically to do with it. It was 
all about competition for resources. So until you have a 
government that does what governments are supposed to do, which 
is to ensure equitable access to national resources through 
security, regulatory framework, rule of law, you are going to 
have this kind of problem in Libya.
    Senator Young. So, Ambassador, my previous line of 
questioning was prospective. Being a little retrospective here, 
let us think about the lessons learned and whether there are 
some broader applications to the Middle East.
    In your prepared remarks, you note that many thought a 
Dubai on the Mediterranean would emerge following the overthrow 
of Qaddafi. And you comment that such an expectation was, in 
hindsight, wishful thinking.
    The Powell doctrine poses eight questions we should 
consider before taking any sort of military action. Number six 
of those was whether the consequences of our action have been 
fully considered. This really applies to both of you, but 
first, Ambassador.
    In 2011, do you believe there was a failure to ask the 
question what comes next, and, more broadly, what broader 
lessons for U.S. policy in the Middle East, based on the 
experiences in Libya, might we draw?
    Ambassador Jones. Senator, I do think--and I was not part 
of the decision-making process then, of course--but I do 
believe that it was a very different situation. I think people 
forget that it was, in fact, the Arab League that came to us 
and asked us to take action to provide a no-fly zone because 
Qaddafi, unlike leaders in Tunisia, Egypt, and Yemen where 
similar uprisings were taking place, the so-called Arab Spring 
uprisings, the leaders were not attacking their own 
populations, but whereas Qaddafi had threatened to do so, to 
kill those rats. And so when you had a situation like that, 
particularly on the heels of events like Rwanda or other 
things, I think politically it would have been very difficult 
to stand by and do nothing and watch a dictator who we had 
dealt with as a dictator who had been responsible for a number 
of terrorist actions throughout the world, to stand by and say, 
well, we prefer the stability to supporting those who are 
trying to overthrow him.
    And again, remember, we were speaking to people on the 
revolutionary side like Dr. Gebril, who presented a very 
articulate vision of what they could do. There was a lot of 
over-promising. So, yes, we did not understand the situation 
well. I will accept that. However, I do not know that we would 
have changed or that we could have known it differently because 
we were not involved in Libya for a long period of time as the 
United States.
    Senator Young. So it sounds as though the political 
imperative to intervene was strong based on a number of reasons 
you put forth. But the planning took place in an atmosphere 
where we had limited information, not just lack of critical 
thinking. It sounds as though that is what you have said.
    Ambassador Jones. I think also that people were surprised. 
It is not that we did not allocate resources or go in with our 
international partners and European partners to try to assist 
Libya. It is important to remember that Libyans, A, did not 
want foreign military on the ground. B, they did not want a lot 
of foreign presence, period. What they asked for was the U.N. 
special mission in Libya, and that is what they got with Tarek 
Mitri who did begin by writing a white paper on organizing some 
kind of security structure and military.
    I think it was only later that people on the Western side 
realized the depth of the fragmentation and, as I said before, 
that the revolution was, in fact, unfinished because successive 
transitional governments in Libya proved entirely incapable of 
de-arming the militias, rehabilitating, taking away their areas 
of control. And it was clear that they were not all that 
interested in having any Western groups, who would have been, 
frankly, injured--I mean, killed--I think in the process, come 
in and do so.
    The Chairman. I will say retrospectively one of the things 
that has occurred is the young leader of North Korea has 
learned that if you give up your weapons of mass destruction, 
then you likely will be taken out. And we are having to deal 
with that dynamic right now.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And thank you both for your testimony.
    The Government of National Accord, the proposed U.N.-
facilitated agreement supported by some factions, has failed to 
achieve broad support in the country. Does that still represent 
the best way forward for Libya? As you talk about trying to put 
all the factions together, is that really an avenue still?
    Dr. Wehrey. Senator, I think the Libyan political agreement 
really remains the touchstone, and most Libyans would agree 
upon that. According to a lot of polls that have been done, 
they still see that agreement that was signed in December 2015 
as the foundation.
    Now, the question is what kind of political structure. So 
it is the Government of National Accord, but you are talking 
about the composition of the Presidency Council. You are 
talking about the other bodies, the state council. That is what 
is being worked out. There was a five-person Presidency Council 
that was tremendously unwieldy that was rife with divisions. 
There were other sort of structural problems. And so the talks 
now are how do you revise that.
    But, again, the key question--and this has been the 
sticking point--is elected civilian control over the military, 
and the question is, are these new negotiations sort of a 
covert way for General Haftar to come on to some sort of new 
council where he would be, de facto, ruler of the country?
    Senator Menendez. Well, then it seems to me if that is a 
fundamental question, do we not have leverage? I mean, we give 
Egypt an enormous amount of money. The Saudis are our ally. Are 
we leveraging our relationship with those two countries vis-a-
vis the support they are giving Haftar and the circumstances in 
Libya in a way that we should be? You are both smiling. I do 
not know what that means.
    Ambassador Jones. This is one of those ``thank you for that 
question, Senator.''
    Senator Menendez. We hear that at confirmation hearings: 
``thank you for that question.''
    Ambassador Jones. As you know, no relationship is purely 
bilateral. We have many engagements in different areas in the 
region, and the nature of our relationships with Egypt, with 
the United Arab Emirates, with Turkey, with Qatar, and others 
are deep and they are multilayered. And I think that when it 
comes to priorities or how much leverage you actually have in 
some areas, it is quite limited, you find, because what is 
existential for others is not necessarily seen as such by us 
and vice versa. And so I think that some of our friends have 
made a decision that they believe they live in the neighborhood 
and they cannot tolerate what they believe we naively think is 
the ability to have Islamists in a government that has access 
to a lot of money and a location.
    And so there are ways around this I think, building in 
safeguards, building in transparent systems, I mean, that we 
would say as Americans you have institutional ways around this 
in these settings where institutions are not always the 
predominant feature. I mean, they see things differently.
    Senator Menendez. The bottom line is you are saying that 
their interests are going to trump any influence that we may 
have over this because we have a multilayered interest with 
them. So therefore, this is not at the top of their pole. I 
mean, it just seems what we are resigned to, if we do not use 
leverage with countries that can influence the situation in 
Libya and continue to exacerbate the circumstances as they 
exist, is that what we are destined to is a continuing internal 
conflict and us, on occasion, striking ISIS targets as we see 
it necessary. But that is a long-term proposition for failure 
at the end of the day.
    Ambassador Jones. I am not sure failure. I think that is 
just the nature of U.S. international relations and diplomacy 
is that it is a matter of priorities and trying to influence 
others when your priorities do not always jibe on these things.
    Senator Menendez. Dr. Wehrey, do you see it the same way?
    Dr. Wehrey. I do. I think the Egyptians, for instance, are 
in fact coming around. And so they have actually pushed for 
negotiations between General Haftar and the West. And so they 
have an interest on their border. They do not want the division 
of Libya. I do not think they want military conquest of the 
country. So, again, they have certain security interests.
    I do think the U.S., especially this new administration, 
has more leverage since we are sending these signals to certain 
Gulf States that we have your back on Iran. I think that can 
translate into more leverage on Libya. I mean, Libya is a 
country whose spillover affects multiple U.S. allies, perhaps 
even more than Yemen, and yet we are not getting involved in 
Libya.
    So I think in the case of the UAE--and I am going to call 
them out--I mean, their interference has been almost purely 
ideological, driven by this phobia of the Muslim Brotherhood. 
And that is not a recipe for a country that is going to be 
immune to terrorism. So, again, I think we need to have 
stronger leverage with these states.
    Senator Menendez. Thank you.
    The Chairman. Thank you.
    And I would point out, I mean, Egypt has certainly from a 
security interest standpoint been very aligned with Israel 
recently. So our interests in the region are complex, and I do 
agree that there is some leverage right now that we have not 
had in the past that hopefully will be useful as we move ahead 
in Libya.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Thank you both for being here.
    Let me begin with a specific question and then kind of a 
broader one because Libya is often pointed to as an example of 
a foreign policy mistake or what have you. And I want to 
revisit that for a moment. You are both keen observers of it. 
Obviously, the Ambassador was there in the aftermath.
    But I want to talk about the Benghazi Defense Brigade. As 
you know, Libya has become a terrorist safe haven, and a 
veritable alphabet soup of organizations are fighting for 
control of the country. What are your views regarding 
cooperation between the Benghazi Defense Brigade and elements 
like Al Qaeda or AQIM? I think that they have attempted to deny 
links to terrorism, but is it not the fact that they are a 
well-known coalition of Islamic militias and extremists? So how 
would you characterize the BDB and, in particular, whether we 
believe that the Libyan National Army has the capability to 
defeat them?
    Dr. Wehrey. The BDB at its core was formed by Islamist 
figures who were ejected from Benghazi. So many of them were 
leaders in Benghazi. They came out. They got support from the 
City of Misrata, from other sources, from Tripoli, allegedly 
from Qatar as well.
    At its core, what the BDB is a symptom of is the massive 
displacement from Benghazi, the fact that they are fighting, 
they say, to return families to Benghazi. Many of them have 
families.
    The Al Qaeda element--I mean, look, this is a small country 
of 6 million. If you go to any Islamist leader, chances are he 
is going to know someone in Al Qaeda. He is going to be 
affiliated with Al Qaeda. There is a 6 degrees of separation. 
Are there people that had Al Qaeda pasts in the BDB? Probably. 
But is the group itself an Al Qaeda affiliate or organization? 
No. Is its involvement and escalation unhelpful? Yes. And I do 
not think that the Libyan National Army has the ability to 
fully defeat a force that could challenge it in the oil 
crescent. The key thing is that oil crescent is going to be a 
site of contention for years. It has been ever since 2015 at 
least.
    Ambassador Jones. And I would only add that there were many 
who argued that when Haftar engaged in Benghazi, that in fact 
he undid the work that had been done of parsing off the 
extremists from the core of some of these militias and in fact 
drove them all back together because their sole objective 
became to defeat him instead of what they had been doing before 
is paring off coming back into the national grouping after the 
revolution and marginalizing the extremists.
    But, again, as Dr. Wehrey says, just about every Libyan 
family--it is like rebels and Yankees--they have got somebody 
in it that they would rather not see at the table that they 
admit to, and then they feel sorry when that person passes away 
too. I mean, I have watched Libyans who are pro-Haftar weep 
over the death of Benghazi revolutionaries because they are 
cousins or they are someone else.
    I would say the hard-core Al Qaeda group has been in 
Derna--a lot of them--or the affiliates. And Derna historically 
has been kind of a refuge for people because it is filled with 
caves. It is isolated and it is easily cut off, so even when 
Qaddafi was there, people were there. The Christian saints used 
to hang out there in the 4th century and 5th century because it 
was so isolated.
    So that is, yes, a problem. Benghazi is a mix. But I think 
it is hard to say that the whole group of the revolutionaries 
is part of this problem. They drove out ISIL, by the way, from 
Derna--a lot of them--and from Benghazi.
    Senator Rubio. On the broader question about Libya, this is 
what I hear from a lot of people, and I am simplifying it. 
Qaddafi was a really bad person, but at least he kept the 
country stable. He was overthrown, and now all the Islamists 
are there and it has become a playground.
    My counter to that argument has been, number one, the 
Islamists, the jihadists are not the people that overthrew 
Qaddafi. It was the Libyan people. That was driven by the 
Libyan people who wanted to get rid of him. He was gone one way 
or the other. The choice before us at the time was not whether 
or not Qaddafi stayed, but whether or not a vacuum would 
follow.
    Is my assessment of what happened back in the beginning of 
this revolution accurate? And the reason why that is relevant 
is it is now being extrapolated to Syria and to other parts of 
the world. The fact of the matter is that the uprising that led 
to the ouster of Qaddafi was not led by the radical elements as 
much as it was by the Libyan people who did not want to live 
under this lunatic criminal.
    Ambassador Jones. I think you are absolutely right, 
Senator. But what happened was that immediately following the 
revolution--it gets back to what we were saying before--the 
infighting over control of the nation's assets have led to 
these divides that are not fundamentally ideological in nature. 
I mean, this is a country, again, 98 percent of whom are 
Malachi Sunnis, Sunni Malachi school of Islam. That is not the 
issue. The issue is who controls the wealth. And that it why I 
say I see it more--and I think Fred does too--in terms of 
status quo ante, who owned the goods versus distributive 
democracy of people who felt that it was time now to share the 
wealth and also have a democratic group.
    Now, I think there are some who are--indeed, they are 
Salafists, but they are still democrats, small ``d'' democrats. 
There are those who are, in fact, ideologues and who are 
extremists, and they have always been there around and they are 
dabbling now, fishing in very troubled waters. But at the end 
of the day, I still believe in my heart of hearts that a 
political reconciliation that provides for equitable 
distribution of national wealth in a transparent way will bring 
people together against those narrow group of extremists. I 
believe that, naively perhaps, but I believe it.
    The Chairman. Thank you, sir.
    Senator Markey.
    Senator Markey. Thank you.
    So let us go to this diplomatic breakthrough that the 
Italians have made bringing together the GNA and Tobruk 
factions in some kind of preliminary negotiation to reach a 
negotiation with Donald Trump saying I do not want to have any 
part of getting the United States in the middle of this. But 
like you are saying, at the end of the day, a diplomatic 
resolution is the only way that we are going to be able to 
resolve these difficulties, including splitting up the oil 
revenues or whatever. And so it is all going to be on the 
table.
    So can you talk a little bit about this Italian initiative 
and what hopes you may have for it to be a building block to 
actually have a resolution reached that is diplomatic and not 
military?
    Dr. Wehrey. Senator, I think the Italians deserve enormous 
credit for brokering this. I think it is a start. I am not sure 
if I would herald it as a breakthrough. What it is is the head 
of the state council, the head of the HOR agreeing to talk, 
meeting for the first time.
    The question is what is next, and the devil is in the 
details. And so what new body emerges from this. But then, 
again, I have to underscore this question about who controls 
military force. And this was what led to the fighting back in 
2014, the monopoly on the use of force. And the question will 
be what is General Haftar's willingness to engage in this 
process.
    Senator Markey. Do you think this indicates that he is 
willing to participate in the process, given the fact that both 
factions are now going to be talking? What do you think this 
portends?
    Dr. Wehrey. I do not know, Senator. I mean, we have seen 
these things happen before, these initiatives, and then there 
is always room for spoilers in Libya. So I just do not know at 
the moment what his stance on this is. I know the Algerians and 
the Tunisians have their own initiative going. I think it is 
encouraging that he is starting to meet with a number of high-
level officials as well. But as I understand it in his 
communications with the U.N., he wants a seat at the table that 
could be the head of the table.
    Senator Markey. Ms. Jones.
    Ambassador Jones. I was just going to say that talks in a 
good way--process is the opposite of conflict. So that is a 
good thing. However, the political valence of these kinds of 
negotiations is really thrown off when you have external 
elements making promises to people or giving them added weight 
in the equation that then leads to them staying out of the 
process. And I think that is the case with Haftar right now and 
with other groups, unfortunately.
    Senator Markey. Reports are that Sarraj is coming to the 
United States to meet with President Trump, and reports also 
are out there that Sarraj is going to talk to Haftar before he 
comes to Washington to meet with Trump. So does that give you 
some reason to believe that the United States, President Trump, 
should play a hands-on role and not a hands-off role in terms 
of trying to resolve this view?
    Ambassador Jones. Of course, I think that the President can 
play a helpful role in that if he underscores the importance of 
a political solution and civilian authorities over the 
military. If anyone can make a deal, I think he probably 
believes he can.
    Senator Markey. So you are saying this is for President 
Trump to try to make a deal. So he should play a hands-on role 
in trying to bring these two parties together?
    Ambassador Jones. If it is, indeed, the case that Sarraj 
has met with Haftar and is coming to see the President, I do 
believe that the President should offer something more than 
saying this is an Italian problem and we are going to help you 
militarily and that is it. Yes.
    Senator Markey. Thank you.
    Doctor.
    Dr. Wehrey. I would agree with that. And, you know, it is 
not simply the deal, but it is what comes next. It is the 
guarantees. It is the involvement to make the deal stick. And 
so that is where this sort of whole-of-government approach is 
so important. So we should be ready to engage beyond this 
handshake.
    Senator Markey. But do you see this as a big moment, that 
you have a number of events that are all kind of converging 
heading towards this meeting in the White House with President 
Trump?
    Dr. Wehrey. Again, I do not want to sound pessimistic, but 
I am guardedly optimistic maybe. But, again, it is something 
that we have seen--and this is where the regional states are so 
important. The role of the Emirates, of Egypt, the fact that 
they, in principle, agreed to the 2015 agreement, they said 
yes, and we thought that was a breakthrough. But meanwhile, 
they hedged. They hedged. So the role of regional spoilers and 
especially spoilers on the ground. So can Sarraj deliver the 
rejectionists in his camp? Are there going to be people in 
Haftar's camp that feel left out? How much control does Haftar 
really have?
    Senator Markey. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And thanks to both of you for being here today.
    And I apologize if I am asking you a repetitive question 
here. But with the rising tension between Libya's House of 
Representatives and the Government of National Accord, there 
was a report from The Guardian on March 14th that stated--and I 
quote--``Russia appeared to have deployed special forces to an 
airbase in western Egypt near the border.'' It goes on in the 
article to explain that ``U.S. and diplomatic officials have 
said any such Russian involvement might be part of an attempt 
to support the Libyan military commander, Khalifa Haftar.''
    Could you provide any insight into involvement of Russia's 
special forces perhaps in Libya and what you have seen and 
heard?
    Ambassador Jones. I am going to yield because I have no 
information on that.
    Dr. Wehrey. I have no information beyond what I have read, 
Senator.
    Senator Gardner. If Russia were to do that--open source 
reports talked about the special forces deployed in Libya--what 
role do you think these special forces, should they be there, 
be playing?
    Dr. Wehrey. Senator, again, we know foreign special forces 
have played a role with General Haftar in the past in his 
campaign in Benghazi. There have been Russian offers of 
training in Russia. There have been offers of medical help. I 
am not sure what value added those get him right now. His 
principal theater of combat is almost over in Benghazi, save 
for a few neighborhoods. He has not shown a willingness to go 
after the terrorists in Derna. So I think the question is, is 
this a symbolic gesture, yet another arrow in the quiver of 
Russia that they are using to sort of signal their involvement?
    Senator Gardner. And I guess I would follow up on that. Is 
it then in the national security interest of the United 
States--a concern of our national security interest--that there 
are Russian special forces, if they are in Libya indeed?
    Ambassador Jones. You know, I think this is one of those 
where we have to be very cautious. I mean, we have had special 
forces in Libya. The British have had special forces in Libya. 
The Italians, others have had. This is all a matter of common 
knowledge now. I am not giving anything away. I think it all 
depends on what their intent is, as Dr. Wehrey says, what is 
their purpose there. And I think a lot of it may be, again, 
Russia putting in our face that they are there. I think we have 
to be careful in how we respond to it.
    Senator Gardner. But so far we have seen no increase in or 
concern of migration, refugee flows out of Libya that could 
jeopardize Italy, Greece stability?
    Dr. Wehrey. Concern from--sorry, Senator?
    Senator Gardner. Is there a concern that Russian special 
forces or activities could spur a refugee crisis or migration 
again into Greece or Italy?
    Dr. Wehrey. I do not think so, Senator. I mean, most of 
those migrant flows are coming up through the central area, the 
desert, the west. So I do not think that would have any 
consequence for the flow of migrants at all.
    Senator Gardner. And according to the 2017 USAFRICOM 
posture statement, the instability in Libya and North Africa 
may be the most significant near-term threat to the U.S. Could 
you talk a little bit about that statement, how you feel about 
it, perhaps what your concerns are in terms of agreeing with 
that posture statement?
    Dr. Wehrey. Senator, I think the notion of the problems in 
Libya spilling over is really profound. And so we are talking 
about a number of U.S. interests in the region, whether it is 
the success and stability of Tunisia. We know that terrorists 
have plotted attacks on Libyan soil in Tunisia. The security of 
U.S. ally Egypt. There is huge concern about the spillover of 
arms and jihadists into the Sahel to the south. So, again, I 
think Libya is really this epicenter that affects the 
surrounding region.
    Senator Gardner. Ambassador.
    Ambassador Jones. Can I add, Senator, though that I think 
it is important to remember, though, too that particularly 
Tripoli and Misrata have a fairly normal day-to-day life on the 
scale of things. What I am saying is a lot of the refugees, as 
Dr. Wehrey said, are coming from other places and flowing 
through Libya because it is not governed properly. There is 
internal displacement in Libya, but the wealthy Libyans have 
other places to live. But it is the planning that goes on 
there. It is the smuggling of weapons. It is the flow of these 
other groups that is really problematic. Libyans will point out 
to you that the terrorists, Ansar al Sharia, were Tunisian not 
Libyans. But that is the problem, that Libya provides a playing 
field particularly in the south. On the other side of that 
coin, though, they do not provide in the south the kind of 
urban centers that ISIL or Daesh typically exploit to extort 
from people, to steal oil or things like that. And we have 
already seen that Libyans in the city states are prepared to 
fight. Particularly Misrata and Tripoli are not prepared to 
allow those kinds of inroads there.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I may have to step out for a moment and may not be here at 
the end. I want to thank you both for being here and for your 
testimony. It has been very, very helpful, and we look forward 
to following up again with questions afterwards.
    With that, Senator Merkley.
    Senator Merkley. Thank you, Mr. Chair.
    I want to start by returning back to the conversation about 
the U.S. intervention initially being requested by the Arab 
League to provide a no-fly zone. It seems like at some point we 
went beyond providing a no-fly zone to merely becoming the air 
force of the opposition. And in that transition, did we 
adequately, in terms of our national security analysis, 
evaluate the consequences of that and thoroughly understand the 
challenge that would be faced in filling the vacuum following 
the demise of Qaddafi's regime?
    Ambassador Jones. Again, I was not part of the planning, 
and I think the military would have to address that, as well as 
people in the Security Council and the State Department at the 
time.
    However, I do believe that we did not believe that there 
was a vacuum in the sense that we were speaking to people, 
Libyan so-called leaders, some of them quite articulate 
supporters of the revolution who, I think, assured people that 
they were prepared to come in and take over and provide the 
kind of institutional replacement for Qaddafi that would allow 
them to organize the country.
    I do not think the Libyans themselves were even aware of 
what a mess this would become, to be honest.
    Dr. Wehrey. I would agree with that. I think there was this 
overly optimistic assessment that Libya would get back on its 
feet. I mean, a small country, oil reserves, the infrastructure 
was not destroyed. I think there was this sense that, okay, we 
have handed this off to the Europeans and the United Nations. 
Now there is Syria happening. Again, the Libyan role was 
essential here in the sense that they told us--you know, we got 
this as well--they did not want a large presence on the ground. 
I think there was an excessive focus on elections as a success 
marker that we got to get these elections right. Meanwhile, the 
security piece of it is not addressed. So there is a lot of 
lessons learned here in terms of how we do this.
    And I will also add the regional role. Regional states had 
their own security plans for Tripoli. They had their own 
proxies. They had their own allies, and they were doing things 
on the ground that were ultimately unhelpful for unity later 
on.
    Senator Merkley. I do think it is something we should keep 
in mind as situations arise around the world. We have very 
articulate spokespersons in Iraq who assured us that there 
would be, following Saddam Hussein, no challenge there in terms 
of the transition. And those individuals will always exist. But 
when there is a long-term dictator, if it is Tito, if it is 
Qaddafi, Saddam Hussein, the transition can be extraordinarily 
difficult afterwards. And I just feel like we should give that 
full analysis.
    I want to turn to the nonproliferation side. Following Pan 
Am 103, years of negotiations with Libya, Libya decides to try 
to rectify that. Out of those negotiations comes a lot of 
conversations that also address their nuclear program. Bush had 
said that Qaddafi, if he followed through on his plans to 
dismantle his nuclear program, could regain a secure and 
respected place among nations and then touted this example as I 
hope other leaders will find an example in Libya's action. 
There were 10 nuclear-related sites that were addressed.
    At the time that we were considering Libya, I asked the 
administration what message this sent to Iran and to North 
Korea. And they were extremely dismissive that there was any 
reverberations in terms of how world leaders would perceive 
Qaddafi's vulnerability following the agreement to dismantle 
his nuclear program. I think that was a tremendous diminishment 
of a potential message being sent to other countries we were 
working on.
    I just want to get your all's sense on that particular 
point.
    Ambassador Jones. Senator, again, these are probably 
questions better directed to people like Bill Burns who were 
engaged in those negotiations back in the day with Qaddafi.
    But I would also say that I think there was a sense at the 
time--and again, I am out of my lane on this, but there was a 
lot of discussion with Saif al-Islam, Qaddafi's son. And there 
was a lot of talk--and Saif was very close to Mahmoud Gebril, 
who ended up leading part of the revolution and the head of the 
first transitional national council that led the government 
afterwards--where Libya was actually talking and doing, looking 
at reforms, and looking at economic reforms and opening up in 
certain ways. And I suspect that there was an element of hope.
    First, there was the concern that it is never a good thing 
for the United States to not talk to large, centrally placed, 
strategically placed countries that can have a dangerous impact 
on the rest of the region. But two, that Libya was at a point 
where we might be seeing the openings of some sort of 
transition to a more open system, more economically vibrant, 
something that we would find ways to influence later on. 
Obviously, the Libyan people did not feel the same way when it 
came to 2011.
    Senator Merkley. The question I am really asking is in the 
context of the role that we and other nations played in 
dismantling the Qaddafi regime and the messages that that sent 
both to North Korea and to Iran.
    Ambassador Jones. Well, I cannot speak for the leaders of 
North Korea. I mean, I could probably speak more to the 
thinking of the Iranians because it strikes me they have a far 
more rational system of governance than the Koreans do. 
Obviously, they are weighing their own survival success in 
that, but very different situations, I think, and 
circumstances. But I am not qualified to address that here.
    Dr. Wehrey. I would just echo that, Senator. I think it is 
a very different context. Again, North Korea and Iran--totally 
different strategic contexts, histories, traditions. So I just 
do not know what lessons they took from that.
    Senator Merkley. Okay. I just find it a bit of a dodge 
really, at a time we are trying to persuade other countries to 
dismantle their nuclear programs, to not recognize that 
dismantling a nation that gave up their nuclear program would 
be seriously--the other countries would pay very serious 
attention to that. So I do not really accept that you are not 
all qualified to address the question. I think you are being 
very tactful and polite.
    Dr. Wehrey. Senator, can I just add the notion of 
dismantling, the U.S. dismantling a country--what happened was 
there was a failing government in Libya that was unable to meet 
the needs of its people. And the reform project was dead by 
2010, and there were serious problems. You had an uprising.
    Senator Merkley. I did not refer to dismantling the nation. 
I referred to Libya dismantling their nuclear program.
    Dr. Wehrey. But you were talking about 2011. The result of 
that was he did not have the ability to deter the intervention 
or that this led to his downfall. That is the lesson----
    Senator Merkley. I am really talking about the message that 
it sent to have worked with a nation to have them forgo their 
nuclear program, dismantle their nuclear program, a nuclear 
weapon program, and then be vulnerable to outside intervention. 
That is kind of the core issue that drives a lot of nations 
like North Korea and Iran to want to secure a nuclear weapon is 
to say it kind of gives them a bit of a guarantee. Our actions 
in regards to North Korea would probably be very different if 
they did not already have nuclear weapons in existence.
    Ambassador Jones. With all respect, Senator--and I am 
really not trying to dodge, but I think that a similar 
situation would only be if the North Korean people themselves 
were rising up against their leader and being slaughtered.
    Senator Merkley. I did not describe it as a similar 
situation. So I think that is a change in the context.
    Ambassador Jones. Right, but I think that that is what 
makes it difficult to say because, again, the United States and 
the international community's choice was, yes, maybe they are 
taking a message from this. Would Qaddafi have used nuclear 
weapons on his own people? I am not so sure. And frankly having 
participated in the final destruction of the precursors for 
chemical weapons, I am pretty glad that we actually went in 
there and were able to clean up a lot of that stuff because the 
last thing you want is to have it in the hands of the militias 
or other groups now. So I do not know.
    Senator Merkley. Well, on that point, we do agree. Thank 
you.
    Senator Cardin [presiding]. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you to our panelists. I am sorry. I was at a 
hearing on North Korea. So I am sorry to be late and miss your 
testimony, which certainly is another threat facing the United 
States.
    I wonder if either of you could speak to--and again, I 
apologize if some of these questions have been answered. But 
can you speak to the current status of the Government of 
National Accord? My understanding is that while they have not 
been able to govern very well, that they do seem to still have 
support from a lot of Libyans. Is that the case, and how long 
would we expect that to continue if the current chaos extends 
for a long period of time?
    Dr. Wehrey. I think again the support from Libyans is for 
this agreement. And I was in Libya last year, and you sense it 
in the capital. There is tremendous frustration with the 
government in Tripoli, with the Government of National Accord, 
with the Presidency Council. They are not able to meet people's 
basic needs. I mean, long lines in front of the banks, rolling 
electricity blackouts. They have not been able to get their 
budget under control. There is a dispute with the Central Bank. 
They really do not control security in the capital. These 
militia flare-ups happen and people are diving for cover. So 
there is a sense that something needs to be renegotiated. But, 
again, I think the foundational accord still sticks, and I 
think a lot of Libyans recognize that. You better not jump into 
the darkness unless you have got something to replace this.
    Senator Shaheen. So are you optimistic that there might be 
progress as a result of the discussions in Rome and the 
potential--what appears to be maybe they are getting close to a 
compromise agreement? Is that something that is promising that 
may offer some hope for people?
    Ambassador Jones. I would agree, Senator, with Dr. Wehrey 
that people do not want to throw out the baby with the 
bathwater in this case, and the fact that the international 
community and the United Nations endorsed this agreement and 
supported it after a long time--it took a long time. And in the 
process Libyans actually learned a lot about political 
dialogue. It was a politically illiterate country in so many 
ways, and having been part of that process for those years, I 
saw this firsthand.
    So I think, again, they want to modify, they want to 
extend. They would like to see--my sense is and what I hear 
from Libyans--they would like to see a final integration 
between the House of Representatives with an authority that is 
not overly overwhelming. They do not want a strong central 
authority like Qaddafi. They do not want a dictator. But they 
would like to see a unified authority and they would like to 
see General Haftar under the civilian authority or even 
marginalized quite frankly. A lot of people would like to see 
him in some kind of honorary role on the outside, promoted up 
and out as it were. But Libyans want stability. They want 
predictability, and they want their economy to go again. That 
is what they really want.
    Senator Shaheen. And so what about the discussions in Rome? 
Are they really making progress?
    Ambassador Jones. You know, I am not privy to a lot of the 
details of that right now. I think discussion is always better 
than the opposite. But as Dr. Wehrey said before you came in, 
Senator, we have seen a lot of discussions in the past. Libyans 
are very good at talking and throwing chaff and then going back 
and fragmenting even more so that you come back with a whole 
new ball game. But I think at least it is a step. And the 
Italians do know Libya very, very well, and Libyans I have 
spoken to do believe that the Italians are taking the correct 
approach. I will say that.
    Senator Shaheen. And how concerned are you that the United 
States seems to be missing from the discussions and from a 
leadership role right now in what is going on?
    Ambassador Jones. Very.
    Senator Shaheen. And what does that mean? You talked about 
the economy of Libya and how people want to see the economy 
going again. And as they are beginning to get their oil 
reserves producing again and we are looking at other nations 
coming in, Russia, I assume China, to come in and provide 
assistance with those oil reserves, what does that mean for the 
United States in the future?
    Ambassador Jones. I will say only that if the perception 
becomes and spreads that the only time the United States was 
interested in post-revolutionary Libya was when we thought we 
could make a lot of deals and make a lot of money and the 
minute that it became difficult, we pulled out and focused 
solely on military instead of what we believe as Americans or 
claim to believe, you know, the four freedoms the principles of 
those, then we have a problem.
    Senator Shaheen. So you would both like to see the United 
States take more of a leadership role there? That is a 
question.
    Ambassador Jones. I think we need to be present, and we 
need to make clear what our vision is. I think that we have 
very successfully--Libya was one of these first situations, 
certainly in my 34-year career, where it was a bilateral 
assignment as Ambassador, but it was a multilateral process 
throughout where we were supporting buttressing U.N. positions 
but also having to work and coordinate very closely with 
Security Council permanent representative allies and our other 
allies across the board and deal with regional powers and 
parties as well. So Libya has got many parties in it. The U.S. 
needs to play a signature role and a very important symbolic 
role there certainly, and then it needs to be--presence 
matters. Our presence matters. Our absence sends a message.
    Senator Shaheen. Dr. Wehrey, do you agree with that?
    Dr. Wehrey. Completely. I mean, that was a great 
characterization. Again, it is not us leading the charge on 
this but playing a coordinating function, and we are, in many 
senses, sort of the glue that keeps it together with many of 
these different players, the leverage with regional states, 
relationships with the Europeans. So, again, just being present 
at the table is so essential.
    And again, just to echo from my conversations on the ground 
with Libyans across the country, whether the south, Benghazi, I 
mean, this notion that we are there simply for counterterrorism 
or we are there for the oil--these narratives are out there. So 
these visible initiatives that signal that we do care about the 
Libyan people, about progress are so important.
    Senator Shaheen. I know I am over my time, Mr. Chairman.
    But as we look at the future of Africa, North Africa, and 
the Middle East, do we not have to include Libya as part of 
whatever strategy we come up with with respect to this region?
    Ambassador Jones. That is a simple one. Yes, because Libya, 
of many of the states, has the potential again to be a resource 
and a really important boundary for a lot of Africa. It should 
be a major tourist area for Europe, I mean, with five World 
Heritage sites. It is beautiful and great fish and all these 
things. It should be a major medical center for sub-Saharan 
Africa and other places around. It should be a place of 
universities. It has a history. It has a presence. It has a 
place. As I tell people, it is closer to Rome than Mecca. Libya 
is actually closer to some parts of Italy than it is to its 
neighbors or the capital. So it is important. It cannot be 
dismissed because it is not just Libya.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Cardin. Thank you for your questions.
    Let me just ask one or two questions, if I might.
    The Commander of the U.S. Africa Command, General 
Waldhauser, before the Senate Armed Services Committee on March 
9th warned that Libya--we must carefully choose where and with 
whom we work in order to counter ISIS and not shift the balance 
between factions and risks sparking greater conflict in Libya.
    So what lessons have we learned from the Sirte campaign 
last year that should guide us in any of our operations that we 
support in Libya today?
    Ambassador Jones. I will say very briefly--Fred has been 
there more recently--it was our policy prescription back in 
March of 2015 that the only way that we could defeat Daesh or 
ISIL in Libya was to partner across the board because of the 
land mass of Libya and the current fragmentation right now. We 
cannot choose one partner. And I think at the time the chairman 
agreed that anyone who shared our views on ISIS and Daesh could 
be a partner with us in this fight in Libya to deny them any 
toehold in that country. And to do so, you have to partner with 
likeminded or with people who share your views on Daesh and 
ISIL. And we found those partners across the board. We worked 
and we found them. So I think it has been successful in that 
regard.
    Dr. Wehrey. I would just add to that, Senator, and I was 
there in Sirte last summer. Again, the very loose constellation 
of militias that attacked Sirte and drove out the Islamic State 
were, in fact, tied to the Government of National Accord, but 
only very loosely--very loosely. And some of them were opposed 
to it, and they have now turned on that government.
    So, again, we did form a partnership, but I think it was a 
very limited and target-specific partnership where we assisted 
them on a specific geographic threat. Now, we are not talking 
about training militias, you know, writing them a blank check, 
giving them aid because that could really upset the factional 
balance, and that was what was mentioned in the testimony, that 
if we side with one faction against terrorism, that could cause 
the other faction to go against us, to turn to another regional 
patron. So there are all sorts of second and third order 
effects of this.
    And we have seen this also in the east where certain 
countries were giving support to the LNA, which was an 
unrecognized force, and that had a political effect on 
negotiations.
    Senator Cardin. If the head of the Presidency Council, Mr. 
Sarraj, actually comes to Washington, if that were to take 
place as there are some rumors--I want to follow up on Chairman 
Corker's follow-up to my question--what should the United 
States expect in deliverables from the leader of the Presidency 
Council, if he were to come to the United States, as a 
prerequisite for a visit here in America?
    Ambassador Jones. Mr. Chairman, I was going to turn that 
around and say my advice to Mr. Sarraj would be that he needs 
to come prepared to firmly articulate what he needs, one, but 
also what he can do right now, what the situation is, but what 
he is prepared to do as well in terms of either compromise or 
political deal-making or what have you to bring things to 
closure.
    But so often we find that when the Libyans come, again, due 
to this kind of what I call a political immaturity in a way, 
they are kind of looking for someone else to tell them what to 
do, and then they want to bicker with it. You know, then they 
want to quibble with it. They cannot do this; they cannot do 
that.
    So he needs to come with a clear, articulate vision of 
where he sees the process going. He should be prepared to lay 
out what the Italian dialogue is producing, and he should be 
prepared to put out there de minimis their red line, you know, 
what their minimum standards are for any kind of compromise or 
for expanding and also revising the agreement I think.
    The U.S. should not be put in a position of having to offer 
something larger, but he should be able to articulate what it 
is they need to do.
    Senator Cardin. So he should come with a specific game 
plan. Is there something more we could expect from that type of 
a high visible opportunity?
    Dr. Wehrey. No. Unfortunately, I think he is not in a 
position of strength to really deliver. So, again, it has to 
be, okay, this visit happens within the context of a broader 
consensus that includes other players, that includes the HOR, 
the state council. So it is not simply the visit alone. He may 
ask for a million things, and we have seen these visits before. 
But then they go back. They cannot execute the programs. They 
cannot write the check for them. We have seen this movie 
before. So, again, we need to demand, when he comes, that who 
is on board with this project, what is the consensus, what is 
the road map.
    The Chairman [presiding]. Thank you. Listen, this has been 
very informative and we appreciate your insights and hope the 
upcoming visits do create some opportunities for us. But we 
thank you both for sharing your deep knowledge of the 
situation.
    We will keep the record open until the close of business on 
Thursday. I know both of you have busy lives, but if you could 
respond to questions fairly promptly, we would appreciate it.
    We look forward to seeing you back here in the near future. 
And again, thank you very much for your testimony.
    The meeting is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
